<html>
<title> - NOMINATIONS OF Q. TODD DICKINSON, TO BE COMMISSIONER OF PATENTS AND TRADEMARKS, DEPARTMENT OF COMMERCE; AND JOHN W. MARSHALL, TO BE DIRECTOR OF THE U.S. MARSHALS SERVICE, DEPARTMENT OF JUSTICE</title>
<body><pre>[Senate Hearing 106-625]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-625
 
  NOMINATIONS OF Q. TODD DICKINSON, TO BE COMMISSIONER OF PATENTS AND 
    TRADEMARKS, DEPARTMENT OF COMMERCE; AND JOHN W. MARSHALL, TO BE 
      DIRECTOR OF THE U.S. MARSHALS SERVICE, DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

     THE NOMINATIONS OF Q. TODD DICKINSON, OF PENNSYLVANIA, TO BE 
  COMMISSIONER OF PATENTS AND TRADEMARKS, DEPARTMENT OF COMMERCE, AND 
  JOHN W. MARSHALL, OF VIRGINIA, TO BE DIRECTOR OF THE U.S. MARSHALS 
                     SERVICE, DEPARTMENT OF JUSTICE

                               __________

                           SEPTEMBER 29, 1999

                               __________

                          Serial No. J-106-50

                               __________

         Printed for the use of the Committee on the Judiciary



                   U.S. GOVERNMENT PRINTING OFFICE
66-392 CC                  WASHINGTON : 2000



                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                  (ii)



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Hatch, Hon. Orrin G., U.S. Senator from the State of Utah........     1
Kennedy, Hon. Edward M., U.S. Senator from the State of 
  Massachusetts..................................................     6
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...     9

                               PRESENTERS

Statement of Hon. John Warner, U.S. Senator from the State of 
  Virginia.......................................................     5
Statement of Hon. Charles S. Robb, U.S. Senator from the State of 
  Virginia.......................................................     8

                                NOMINEES

Testimony of John W. Marshall, of Virginia, To Be Director of the 
  U.S. Marshals Service..........................................    13
Testimony of Q. Todd Dickinson, of Pennsylvania, To Be 
  Commissioner of Patents and Trademarks.........................    14

               ALPHABETICAL LIST AND MATERIALS SUBMITTED

Dickinson, Q. Todd:
    Testimony....................................................    14
    Prepared statement...........................................    15
    Questioning by Senators:
        Hatch....................................................    17
        Sessions.................................................    22
        Leahy....................................................    25
Marshall, John W.:
    Testimony....................................................    13
    Questioning by Senators:
        Thurmond.................................................     3
        Hatch....................................................    19
        Sessions.................................................    21
        Leahy....................................................    24

                                APPENDIX
                         Questions and Answers

Responses of Q. Todd Dickinson to questions from Senators:
    Thurmond.....................................................    27
    Grassley.....................................................    29
    Kennedy......................................................    32


  NOMINATIONS OF Q. TODD DICKINSON, TO BE COMMISSIONER OF PATENTS AND 
    TRADEMARKS, DEPARTMENT OF COMMERCE; AND JOHN W. MARSHALL, TO BE 
      DIRECTOR OF THE U.S. MARSHALS SERVICE, DEPARTMENT OF JUSTICE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 29, 1999

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch (chairman of the committee) presiding.
    Also present: Senators Thurmond, Leahy, Sessions, and 
Kennedy.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    The Chairman. Today, the Judiciary Committee will hear from 
two executive branch nominees, the President's nominees for 
Commissioner of Patents and Trademarks, and for Director of the 
U.S. Marshals Service. Each of these positions is of special 
importance because each of these entities faces challenges as 
we move into the 21st century.
    Now, with regard to the Patent and Trademark Office, the 
committee looks forward to hearing from Todd Dickinson, to be 
Assistant Secretary of Commerce and Commissioner of Patents and 
Trademarks. Our Nation's patent system has been a driving force 
behind American innovation since our Nation's founding.
    I am going to put the rest of my statement into the record 
so that the record will show how important I believe this 
nomination is.
    With regard to the Marshals Service, we look forward to 
considering the nomination of John Marshall, or should I say 
Marshal Marshall, to be Director of the U.S. Marshals Service. 
The Marshals Service, which was created by the Federal 
Judiciary Act of 1789, is the oldest Federal law enforcement 
agency in America, and it is responsible for protecting the 
Federal judiciary and providing security in judicial facilities 
throughout the Nation, and many other tasks as well.
    I will put the rest of my remarks into the record.
    [The prepared statement of Senator Hatch follows:]

              Prepared Statement of Senator Orrin G. Hatch

    Today the Judiciary Committee will hear from two Executive Branch 
nominees: the President's nominees for Commissioner of Patents and 
Trademarks and for Director of the U.S. Marshals Service. Each of these 
positions is of special importance because each of these entities faces 
tough challenges as we move into the Twenty-First Century.
                    the patent and trademark office
    The Committee looks forward to hearing from Todd Dickinson to be 
Assistant Secretary of Commerce and Commissioner of Patents, and 
Trademarks.
    Our nation's patent system has been a driving force behind American 
innovation since our nation's founding. Indeed, the Framers recognized 
the importance of protecting innovation when they included in Article 
I, Section 8 of our Constitution the power of ``securing for limited 
Times to Authors and Inventors the exclusive. Right to their respective 
Writings and Discoveries.'' And pursuant to the 1790 patent act, Thomas 
Jefferson, as Secretary of State, was charged with receiving patent 
applications and issuing patents, in conjunction with the Attorney 
General and the Secretary of War. Much has changed since that time, but 
more than 200 years later the patent system continues to propel 
American ingenuity, economic growth, and our nation's status as world 
leaders in innovation and creativity.
    The Patent and Trademark Office (``PTO''), as the administrator of 
our federal patent and trademark systems, plays a key role in 
maintaining America's competitive edge and innovative superiority. Mr. 
Dickinson's nomination comes at an important time. Because, as good as 
our patent and trademark systems are, the challenges posed by new and 
expanding global markets for American technology, foreign competition, 
and the transition from the industrial age to a new information-based 
economy are as daunting as the patent and trademark systems, or the 
PTO, have ever faced.
    In short, if we are to meet these challenges, we must have a PTO 
that is equipped with a vision of patent and trademark policy that will 
take us into the next century. We must have leadership to attract and 
retain bright people to administer the functions of the PTO in an 
efficient manner that is responsive to the needs of the PTO's clients--
American innovators and businesses. And, we must have the facilities 
and technology to maintain our patent and trademark systems on the 
cutting edge, even in the face of burgeoning workloads, limited 
resources, and increasing complexity of technology and administrative 
matters before. I look forward to Mr. Dickinson's testimony today and 
to hearing more of his vision for the PTO as we approach the new 
millennium.
                          the marshals service
    The Committee also looks forward to considering the nomination of 
John Marshall to be Director of the United States Marshals Service.
    The Marshals Service, which was created by the Federal Judiciary 
Act of 1789, is the oldest Federal law enforcement agency in America. 
The Marshals Service is responsible for protecting the Federal 
Judiciary and providing security in judicial facilities throughout the 
nation. Needless to say, protecting the Federal Judiciary is an 
extremely important task that is essential to maintaining an orderly 
justice system and, ultimately, the rule of law. In many nations around 
the world, judges are routinely subject to violence and literally 
perform their judicial duties in fear. In recent years, prominent 
judges have been murdered in Latin and South America. And in the United 
States, a federal judge on the Eleventh Circuit was murdered a few 
years ago.
    In addition to protecting federal judges, the Marshals Service is 
also responsible for the custody and transportation of pretrial Federal 
prisoners and for the administration of the Witness Security Program 
that enables the federal government to solve numerous organized crime 
cases. The Marshals Service also apprehends thousands of federal 
fugitives each year.
    With the growing threat of domestic and foreign terrorism directed 
at the federal government, the twenty-first century holds special 
challenges for the United States Marshals Service. Consequently, it is 
critical that the Marshals Service have leadership with hands on 
experience in protecting and facilitating the administration of 
justice. Accordingly, the Committee looks forward to hearing from John 
Marshall, the President's nominee, as to his views of the challenges 
facing the Marshals Service and how he plans to meet them.

    The Chairman. I will say the committee looks forward to 
hearing from both of these nominees as to their views and the 
challenges that they will be facing. We are also very happy to 
have Senator Warner here, and I think before we call on the two 
nominees, let's call on Senator Warner first and then I am 
going to turn to Senator----
    Senator Warner. The chairman here might have a few remarks.
    The Chairman. Senator Thurmond has some questions once we 
are through.
    Senator Warner. I see.
    Senator Thurmond. I have got to open the Senate in a few 
minutes.
    Senator Warner. Why don't I just defer to our distinguished 
former chairman to let his questions be asked.
    Senator Thurmond. Thank you very much.
    The Chairman. Mr. Dickinson, why don't we have you come to 
the table as well so we can charge both of you at the same 
time?
    Senator Warner. Senator Thurmond never fails to open the 
Senate, as you well know, Mr. Chairman.
    The Chairman. We have to get him over there on time because 
he takes that seriously, I will tell you.
    Senator Thurmond. I like to be on time.
    The Chairman. Well, you are.

                    questioning by senator thurmond

    Senator Thurmond. Mr. Marshall, how has your experience in 
law enforcement and as U.S. Marshal for the Eastern District of 
Virginia prepared you for the position you are seeking today?
    Mr. Marshall. Senator, each day across the country the 
Marshals Service interacts with other Federal law enforcement 
agencies, as well as State and local agencies. What I bring to 
the Service is 14 years of experience at the State level as a 
Virginia State Trooper and 5 years as U.S. Marshal of the 
Eastern District of Virginia.
    In addition to overseeing the district, I have also been on 
several committees, which has given me very valuable experience 
in dealing with the Service on a nationwide basis and with our 
headquarters.
    Senator Thurmond. Mr. Marshall, the Marshals Service needs 
strong leadership, which I believe, based on your experience, 
you will provide. One of the most important issues facing the 
Service today involves budget problems. In the past 3 years, 
auditors have issued a disclaimer of opinion regarding its 
books. Also, the Inspector General has reported control 
weaknesses with the Service's new financial management system, 
STARS. Further, news reports indicate that the Justice 
Department has had to transfer funds to the Service to keep it 
operating in this fiscal year.
    What are your concerns regarding financial weaknesses at 
the Service, and how do you plan to address them?
    Mr. Marshall. Senator, without a doubt, in light of our 
current budget shortfall and the associated hiring freeze that 
the agency has been under since January of this year, we need 
to make significant changes in the way we formulate and execute 
our budget. In particular, we need to develop a process which 
includes taking into consideration long-term budget 
implications, particularly when we hire new positions and when 
we acrete existing positions.
    Senator Thurmond. Mr. Marshall, as you know, the Marshals 
Service is responsible for providing personal security for the 
Director of the Office of National Drug Control Policy. The 
security the drug czar receives appears to be excessive 
compared to other Federal officials.
    I understand the current Director of ONDCP requested and 
was provided a new armored Cadillac--I repeat, a new armored 
Cadillac--which cost the taxpayers $141,000. Do you believe 
that the routine duties of the drug czar warrant the use of an 
armored car, and if you are confirmed, will you review this 
matter and advise the committee of your findings?
    Mr. Marshall. Senator, I understand your concerns. We have 
been tasked--the Marshals Service has been tasked with 
providing protection for the Director of the Office of National 
Drug Control Policy since 1989. If confirmed as Director, I 
will look into the current threat assessment on the Director 
and will certainly report back to you as far as the current 
status of the level of protection that we are providing to him.
    Senator Thurmond. Thank you. Mr. Marshall, in addition to 
an armored car, it also appears that the Director of ONDCP has 
considerable more personal security guards than most other 
Federal officials, except those protected by the Secret 
Service.
    If confirmed, will you evaluate the extent of security 
provided to the drug czar to determine whether it is excessive 
based on the threat level that he faces?
    Mr. Marshall. Yes, sir, Senator, I will.
    Senator Thurmond. Mr. Marshall, on another topic, I believe 
there are far too many criminals who are fugitives from justice 
roaming the streets of America today. According to some 
estimates, there are at least one-half million State and local 
felony fugitives, and about 45,000 Federal fugitives.
    As you know, the Marshals Service has State-Federal task 
forces that help to apprehend these fugitives. I believe that 
there is a need to expand joint Federal-State fugitive task 
forces within the Marshals Service to help address this 
problem.
    Will you review this situation and advise me of your 
findings?
    Mr. Marshall. Yes, Senator, I will.
    Senator Thurmond. Mr. Marshall, if the Marshals Service 
were provided administrative subpoena power regarding fugitives 
as the DEA currently has regarding drug cases, would that 
assist your agency in locating fugitives effectively and 
quickly, and explain why.
    Mr. Marshall. Senator, administrative subpoena authority 
would be a tremendous investigative tool for the Marshals 
Service. We are very proud of our fugitive apprehension 
program, and to have that authority would certainly enable us 
to locate the fugitives that we are investigating without delay 
that we are currently going through to obtain subpoenas. It 
would be a tremendous asset to us.
    Senator Thurmond. I am counting on big things from you. I 
have heard so many nice things about you, and don't you let us 
down.
    Mr. Marshall. Thank you, Senator. I won't.
    Senator Thurmond. I have got to go and open the Senate now. 
Thank you very much.
    Mr. Marshall. Thank you very much, Senator Thurmond.
    Senator Thurmond. Thank you, Mr. Chairman, for your 
kindness.
    The Chairman. You bet. Thank you.
    You had better pay attention to him. We all do around here, 
I want you to know.
    Mr. Marshall. Yes, sir, Mr. Chairman.
    The Chairman. He is truly one of the greatest people I have 
ever known.
    You get over there because we don't want the Senate to be 
open without you.
    I think I will defer your opening statements until I call 
on Senator Warner, if it will be all right.

STATEMENT OF HON. JOHN WARNER, A U.S. SENATOR FROM THE STATE OF 
                            VIRGINIA

    Senator Warner. Mr. Chairman, I thank you very much. 
Indeed, I was greatly impressed with the manner in which the 
nominee answered some good, tough questions from the former 
chairman of this committee.
    Chairman Hatch, Chairman Thurmond and other members of this 
committee, I am pleased to strongly support a longtime Virginia 
resident, John W. Marshall, to serve as Director of the U.S. 
Marshals Service.
    As a former Federal prosecutor myself, I know the important 
role that the U.S. Marshals Service plays in our Federal 
Government. The U.S. Marshals Service has a long, distinguished 
history of protecting the Federal judiciary, arresting Federal 
fugitives, transporting Federal prisoners, protecting 
endangered Federal witnesses, and managing assets seized from 
criminal enterprises.
    Mr. Chairman, in light of these important duties that the 
U.S. Marshals Service performs, it is absolutely imperative 
that the Marshals Service has a strong leader, one with 
extensive experience. John W. Marshall meets these criteria.
    Since 1994, Mr. Marshall has served as the U.S. Marshal for 
the Eastern District of Virginia. During his time in this 
position, Mr. Marshall chaired the Marshals Service Leadership 
Council and has been a member of the Service's Asset Forfeiture 
Leadership Council.
    In addition, in late 1995, Mr. Marshall served as an on-
site commander for the U.S. Marshals' deployment of 150 
operational personnel in the Virgin Islands in the aftermath of 
Hurricane Marilyn. Prior to working for the U.S. Marshals 
Service, Mr. Marshall served the Commonwealth of Virginia for 
14 years in the Virginia State Police, a very proud, efficient, 
and well-recognized, not only in Virginia but beyond its 
borders, as a first-class law enforcement organization.
    Starting his career with the Virginia State Police as a 
trooper in 1980, Mr. Marshall later worked as a special agent 
and earned the rank of sergeant. Mr. Marshall is obviously a 
very accomplished American who has dedicated his professional 
career to public service. He is well-qualified to serve as 
Director of the U.S. Marshals Service, and I am certain that he 
will serve in this position with honor, integrity, and with 
distinction. Mr. Marshall would be a strong asset for our 
Nation's oldest--and I repeat oldest--law enforcement agency.
    Again, I am pleased and honored to indicate my support for 
this outstanding individual. And what a privilege it was this 
morning also to meet his family, and indeed the widow of our 
distinguished late Justice. I had the opportunity to share a 
moment with Mrs. Marshall. I was a young law clerk on the 
Federal circuit court of appeals here when I went up and stood 
in the back of the courtroom when Brown v. Board of Education 
was argued by Thurgood Marshall and John W. Davis, a day I will 
not forget.
    Good luck to you, sir.
    Mr. Marshall. Thank you, Senator.
    Senator Warner. Thank you very much.
    The Chairman. Well, thank you, Senator Warner. That is very 
high praise indeed. We appreciate you taking time out of a busy 
schedule to be here.
    Senator Warner. I am glad to do it. Thank you.
    The Chairman. Let me turn to Senator Kennedy and see if he 
has any remarks.
    Mr. Dickinson, why don't you take the other microphone 
there?

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you, Mr. Chairman. I think all of us 
are enormously appreciative of having these hearings this 
morning because I think all of us are very mindful of the long 
process that it is taking in getting the administration's 
nominees to consideration from our committee and also on the 
floor. So we welcome these particular meetings, and we look 
forward to action on the Sentencing Commission as well at the 
earliest possible time, since that has been basically immobile 
since the vacancies that have been created on it. That has been 
a mixed responsibility between getting nominees for the 
Sentencing Commission and also for the Judiciary Committee and 
the Senate as a whole, but we will look forward to action on 
those matters.
    I am particularly delighted to welcome our two nominees, 
one in particular, Mr. John Marshall. I want to say, as Senator 
Warner has, about not only his very wide range of background 
and activities that he will bring to this job, but there is 
also an extraordinary ingredient steeply fixed in the soul of 
that family, and that is one of public service. This has really 
been an extraordinary legacy.
    I have been fortunate to have met, obviously, the Justice, 
and knew him not closely, but one of his great admirers over a 
long period of time, and also Goody Marshall, who I had the 
fortune of being a legislative assistant to me for a number of 
years and just was one of the most able and gifted and talented 
young people that I have had good fortune to have, and now 
serves with great distinction in the White House.
    So it is an extraordinary family, committed to public 
service, and I think it is a great tribute to the mother and 
the Justice and to the members of the family for this very keen 
kind of awareness and dedication. We are very lucky to have 
them.
    As has been pointed out, he brings a wide range of very 
practical and intellectual assets to this position. It is a 
very important position, a very important position, and I am 
confident that he will do it with great distinction. And I look 
forward to supporting his nomination not only on this 
committee, but on the floor. I think the President has selected 
wisely, and we thank you, Mr. Chairman, for having this 
hearing.
    I want to thank Todd Dickinson. I think we are fortunate to 
have someone of his ability and understanding of one of the 
most complex and difficult aspects of the law. I don't think 
many of us who came to this committee really ever thought we 
were ever going to be dealing much with trademarks and 
copyright. I think it was the 1976 Act that was really the 
first one that I had seen experienced, having been on the 
committee since 1963.
    This is not an area of great expertise by this committee. 
We have been trying to learn over a period of time, but one 
thing that has happened is so much is involved in terms of 
copyright and trademark and intellectual property, and we need 
to have the skills developed by ourselves, but also by our 
staff, but also in this particular position. And Todd Dickinson 
has been a skilled and learned professional in this area, and I 
think has brought great enlightenment to these issues which are 
difficult and mundane, but have enormous implications in terms 
of people's interests. So we thank you very, very much for your 
willingness to serve.
    I thank the Chair. I appreciate his indulgence.
    [The prepared statement of Senator Kennedy follows:]

            Prepared Statement of Senator Edward M. Kennedy

    Mr. Chairman, I welcome today's hearing to consider these nominees. 
Over the past few months, many of us have expressed concern about the 
Senate's continuing delays in acting on President Clinton's nominees to 
important positions in the Administration and the federal courts. Over 
100 positions, including important national security, defense, 
education, and judicial positions are unfilled.
    The Republican leadership also continues to refuse to act on 
President Clinton's nomination of Bill Lann Lee to head the Department 
of Justice's Civil Rights Division--a critical law enforcement 
position.
    The confirmation impasse is serious.
    I welcome the two nominees appearing before us this morning. John 
Marshall has been nominated to be Director of the U.S. Marshals 
Service. He is the brother of Thurgood Marshall, Jr. who is a former 
member of my Judiciary Committee staff and who is currently serving the 
Clinton Administration with great distinction. The Marshall family has 
made extraordinary contributions to our country. John Marshall brings 
numerous years of outstanding law enforcement experience, having served 
14 years as a Virginia State Trooper and five years as the U.S. Marshal 
for the Eastern District of Virginia. I have no doubt that John 
Marshall will serve ably in this new position.
    Todd Dickinson is eminently qualified to serve as Assistant 
Secretary of Commerce and Commissioner of Patents and Trademarks. Over 
the years, he has developed a widely respected expertise in the field 
of intellectual property. He brings excellent credentials to this 
position and I commend him on his nomination.
    Mr. Chairman,, I commend you for scheduling this hearing. I look 
forward to working with you in moving these nominees through the 
confirmation process as quickly as possible.

    The Chairman. Well, thank you, Senator Kennedy.
    We have Senator Robb here. Senator, we will take your 
statement at this time.

  STATEMENT OF HON. CHARLES S. ROBB, A U.S. SENATOR FROM THE 
                       STATE OF VIRGINIA

    Senator Robb. Thank you, Mr. Chairman and Senator Kennedy, 
for the opportunity to say just a word on behalf of the 
President's nominee to be Director of the U.S. Marshals 
Service.
    I have had the privilege of knowing the Marshall family for 
many years. As Senator Kennedy alluded to, this is a family 
that has been steeped in public service and commitment for 
literally generations at this point. And I had occasion to know 
John Marshall, now Marshal Marshall, when he was with the 
Virginia State Police for 14 distinguished years and to 
recommend his nomination to be the Marshal for the Eastern 
District of Virginia, and to concur and very enthusiastically 
support his nomination to be Director of the Marshals Service.
    It is a Service that has an extraordinary range of duties 
that we come into contact with from day to day, but we 
sometimes forget just how important it is to the functioning of 
our entire legal and judicial system. But I think in John 
Marshall the President has selected someone who has clearly 
gained the respect of those with whom he has worked at each 
level of his government service.
    And as Senator Kennedy has already observed, he has a 
brother who has performed yeoman service not only to the 
distinguished Senator from Massachusetts, but to the President 
and the Vice President of the United States. And I am very 
pleased that his mother, Mrs. Thurgood Marshall, Cissy 
Marshall, is with him yet again today. She has had quite a 
number of public appearances of late in support of two 
extraordinary sons who have followed their father into public 
service, and specifically in this case heading up the U.S. 
Marshals Service.
    I might offer just one anecdotal note, if I may, Mr. 
Chairman, because it has meant a great deal to me. As it turned 
out, when Justice Thurgood Marshall passed away, the last 
letter that he signed happened to be a letter that he was 
sending to me wholeheartedly recommending John Marshall for 
appointment then to U.S. Marshal for the Eastern District of 
Virginia.
    His secretary was kind enough to contact me even before I 
received the letter and say that, as fate would have it, that 
happened to be the last letter that Justice Marshall sent, and 
it remains one of my treasured possessions. And I was able to 
fulfill Justice Marshall's request, although it was seconded by 
many throughout the Eastern District of Virginia who knew and 
already admired the good work that John Marshall had already 
done for Virginia.
    So I am very pleased today, Mr. Chairman and Senator 
Kennedy, to wholeheartedly endorse and recommend the nomination 
of the President of John Marshall to be Director of the 
Marshals Service.
    And might I also say that Mr. John Richard Steere of 
Virginia, has been nominated for the U.S. Sentencing 
Commission. He is well-known to this committee, has served as 
an aide to Senator Thurmond and as General Counsel to the 
Sentencing Commission. So I wanted to put in a word for another 
highly qualified Virginian. But I am particularly pleased at 
this moment to stand four-square behind the nomination of John 
William Marshall to be Director of the U.S. Marshals Service.
    Mr. Chairman and Senator Kennedy, I thank you for your 
attention.
    The Chairman. Well, thank you, Senator Robb. We appreciate 
you taking time to be here, and it is certainly very good 
praise indeed.
    The Chairman. Senator Kennedy.
    Senator Kennedy. I have a statement of Senator Leahy, if it 
could be made a part of the record.
    The Chairman. Without objection.
    [The prepared statement of Senator Leahy follows:]

 Prepared Statement of Hon. Patrick J. Leahy, a U.S. Senator From the 
                            State of Vermont

    This morning the Senate Judiciary Committee is considering two 
important Executive Branch nominations, one to head the U.S. Marshal 
Service and the other to serve as our Commissioner of Patents and 
Trademarks. Some of us on this Committee already know and have worked 
closely with both of these outstanding nominees, John W. Marshall, 
currently a U.S. Marshal in Virginia, and Q. Todd Dickinson, who has 
been our Assistant Commissioner of Patents and Trademarks. I thank the 
Chairman for moving ahead on these nominations.
    We have pending before us more than 30 other Executive Branch 
nominations, as well. These include the seven nominees to the United 
States Sentencing Commission, four nominees to the United States Parole 
Commission, three members of the Board of Directors of the State 
Justice Institute, three Assistant Attorney General nominations, three 
United States Marshal nominations, eight United States Attorney 
nominations, and the nominee to head the Office for Victims of Crime at 
the United States Department of Justice. These are all important 
nominations. To be fair to the nominees and their families, to show 
respect for the offices to which they have been nominated and the 
responsibilities of those offices, and to fulfill our constitutional 
role in the confirmation process, I urge prompt and favorable action of 
these nominations by the Committee and by the Senate.
    The Executive Branch nomination that has been held up the longest 
is that of Bill Lann Lee to be Assistant Attorney General for the Civil 
Rights Division at the United States Department of Justice. I marked 
the 2-year anniversary of this nomination with a Senate floor statement 
in July. I continue to urge this Committee to do the right thing, the 
honorable thing, and report this qualified nominee to the Senate so 
that the Senate may fulfill its constitutional duty under the advice 
and consent clause and vote on this nomination without further delay.
    His is a critical position in the fight against hate crimes. If we 
are serious about opposing hate crimes, we ought to confirm Bill Lann 
Lee to help wage that battle with the full authority of a confirmed 
Assistant Attorney General for civil rights, rather than treat him as 
if the efforts he is leading against hate crimes were unimportant. Let 
the Senate vote on the confirmation of this good man.
    We need Bill Lann Lee's proven problem-solving abilities in these 
difficult times with hate crimes on the rise across the country. He is 
spearheading federal efforts against hate crimes, against modem slavery 
and for equal justice for all Americans. He is doing an outstanding 
job.
    When confirmed, Bill Lann Lee will be the first Asian Pacific 
American to be appointed to head the Civil Rights Division in its 
storied history and the highest ranking federal executive officer of 
Asian Pacific American heritage in our 200-year history. Senate 
confirmation of Bill Lann Lee is an important, concrete step that the 
Senate can take now to help in efforts against hate crimes and to 
protect the civil rights of all Americans.
    I am deeply disappointed, as well, that some on the other side of 
the aisle are continuing to delay consideration and confirmation of the 
President's outstanding nominees to the United States Sentencing 
Commission. In his Year-End Report for 1997 the Chief Justice of the 
United States made a special plea for prompt action on nominees to the 
Sentencing Commission. It has taken some time for Senator Lott and 
Senator Hatch to be able to get together with the Senate Republican 
caucus on the panel of people who would be acceptable nominees. The 
President has been very patient in the course of his extended 
consultation with Senate Republican leaders on these nominations. Now 
that we have been able to move forward with the nomination of a strong 
and experienced bipartisan panel of judges and others to reinvigorate 
the Sentencing Commission, now that the President has sent us seven 
qualified nominees, it is time for this Committee and the Senate to 
proceed. I look forward to working with the Chairman to ensure the 
prompt consideration and confirmation of the panel of nominees pending 
before us.
    Finally, I regret that the Committee has not moved forward on the 
six qualified judicial nominee who had their confirmation hearing back 
on September 14 and hope that they will not be delayed much longer. 
Likewise, the Senate has before it ready for action the nominations of 
Judge Richard Paez, Raymond Fisher and Marsha Berzon to the Ninth 
Circuit, Justice Ronnie L. White to the District Court in Missouri, and 
other qualified nominees. For Judge Paez and Justice White, this is 
their second extended hold on the Senate calendar, having been 
favorably reported by the Committee both last year and earlier this 
year.
    I urge the Senate Republican leadership to heed the words of 
Justice Rehnquist:

          Some current nominees have been waiting a considerable time 
        for a Senate Judiciary Committee vote or a final floor vote. * 
        * * The Senate is surely under no obligation to confirm any 
        particular nominee, but after the necessary time for inquiry it 
        should vote him up or vote him down.

At the time the Chief Justice issued that challenge, Judge Paez' 
nomination had already been pending for 24 months and Justice White's 
nomination for six months--that was almost two years ago.

    I say that this is about fairness and about the Senate being fair 
to all nominees and to other Senators and to the American people. The 
Senate should be able to vote on the Paez nomination within 4 years and 
the Berzon nomination within 2 years. Anonymous Republican Senators are 
being unfair to the judicial nominees on the calendar. The Senate 
Republican leadership refuses to commit to a vote before the end of the 
session on these qualified nominees.
    The Atlanta Constitution noted last Thursday:

          Two U.S. appellate court nominees, Richard Paez and Marsha 
        Berzon, both of California, have been on hold for four years 
        and 20 months respectively. When Democrats tried Tuesday to get 
        their colleagues to vote on the pair at long last, the 
        Republicans scuttled the maneuver. The Paez case seems 
        especially egregious. * * * This partisan stalling, this 
        refusal to vote up or down on nominees, is unconscionable. It 
        is not fair, It is not right, It is no way to run the federal 
        judiciary. Chief Justice William Rehnquist is hardly a fan of 
        Clinton. Yet even he has been moved to decry Senate delaying 
        tactics and the burdens that unfilled vacancies impose on the 
        federal courts. Tuesday's deadlock bodes ill for judicial 
        confirmations through the rest of Clinton's term. This 
        ideological obstructionism is so fierce that it strains our 
        justice system and sets a terrible partisan example for years 
        to come.

    It is against this backdrop that I, again, ask the Senate to be 
fair to these judicial nominees and all nominees. For the last few 
years the Senate has allowed one or two or three secret holds to stop 
judicial nominations from even getting a vote. That is wrong.
    I am working with the Chairman to try to forge a way through the 
impasse on the Senate floor so that the Senate considers all of the 
judicial nominations that this Committee has reported. I have tried to 
work with the Chairman and with the Majority Leader on all these 
nominations. I would like to work with those whom the Majority Leader 
is protecting from having to vote on the Paez and Berzon nominations, 
but I do not know who there are.
    In February of this year, the Majority Leader and the Democratic 
Leader sent a letter to all Senators to address this practice of 
``secret holds.'' They told us then that, ``members wishing to place a 
hold on any * * * executive calendar business shall notify the 
committee of jurisdiction of their concerns.'' I am the Ranking 
Democrat on the committee of jurisdiction for these nominations and 
have not been shown that courtesy by a single Senator obstructing 
consideration of this nominations. The leaders' letter goes on to 
state: ``Further, written notification should be provided to the 
respective Leader stating their intentions regarding the * * * 
nomination.'' I have checked with Senator Daschle and he has received 
no such notification. Thus, in spite of what was supposed to be a 
Senate policy that did away with anonymous holds, we remain in a 
situation where I do not even know who is objecting to proceeding to 
schedule a vote on the Paez and Berzon nominations, let alone why they 
are objecting. In this setting I have no ability to reason with them or 
address whatever their concerns are because I do not know their 
concerns. That is wrong and unfair to the nominees.
    I do not deny to any Senator his or her prerogatives as a member of 
the Senate. I have great respect for this institutions and its 
traditions. Still, I must say that this use of secret holds for 
extended periods that doom a nomination from ever being considered by 
the United States Senate is wrong and unfair and beneath us. Who is it 
that is afraid to vote on these nominations? Who is it that is hiding 
their opposition and obstruction of these nominees?
    A Washington Post editorial last week characterized the conduct of 
the Republican majority as ``simply baffling'' and opined: ``[T]he 
Constitution does not make the Senate's role in the confirmation 
process optional, and the Senate ends up abdicating responsibility when 
the majority leader denies nominees a timely vote. All the nominees 
awaiting floor votes, Mr. Stewart included, should receive them 
immediately.''
    It is September 29 and the Senate has acted on only 17 of the 68 
judicial nominations the President has sent us this year. We have only 
4 weeks in which the Senate is scheduled to be in session for the rest 
of the year. By this time last year the Committee had held 10 
confirmation hearings for judicial nominees, and 43 judges had been 
confirmed. By comparison, this year there have been only four hearings 
and only 17 judges have been confirmed. Thus, the Senate is operating 
this year at less than half the productivity of last year. We remain 
miles behind our pace in 1994, when by this time we had held 21 
hearings and the Senate had confirmed 73 judges.
    The Florida Sun-Sentinel said last week:

          The ``Big Stall'' in the U.S. Senate continues, as senators 
        work slower and slower each year in confirming badly needed 
        federal judges. * * * This worsening process is inexcusable, 
        bordering on malfeasance in office, especially given the urgent 
        need to fill vacancies on a badly undermanned federal bench. * 
        * * The stalling, in many cases, is nothing more than a 
        partisan political dirty trick.

    For the last several years I have been urging the Judiciary 
Committee and the Senate to proceed to consider and confirm judicial 
nominees more promptly and without the months of delay that now 
accompany so many nominations. Over the last couple of weeks 
independent studies have verified my complaints and concerns. According 
to the report released last Wednesday by the Task Force on Judicial 
Selection of Citizens for Independent Courts, the time it is taking for 
the Senate to consider nominees has grown significantly, from an 
average of 83 days in 1993 and 1994 during the 103rd Congress, to over 
200 days for the years 1997 and 1998 during the last Congress, the 
105th. In fact, if they were to look at the average number of days from 
confirmation to nomination on an annual basis, as I have, they would 
see that it broke records in each of the last three succeeding years 
1996, 1997 and 1998. In 1998, the average time for confirmation was 
over 230 days.
    The report also verifies that the time to confirm female nominees 
is now significantly longer than that to confirm male nominees--a 
difference that has defied logical explanation. They recommend that 
``the responsible officials address this matter to assure that 
candidates for judgeships are not treated differently based on their 
gender.''
    The report recommends that the Senate should eliminate the practice 
of allowing individual members to place holds on a nominee.
    This summer Professor Sheldon Goldman and Elliot Slotnick published 
their most recent analysis of the confirmation process in President 
Clinton's second term in Judicature magazine. They note the 
``unprecedented delay at both the committee and floor stages of Senate 
consideration of Clinton judicial nominees'' and conclude:

          It is impossible to escape the conclusion that the Republican 
        leadership in the Senate is engaged in a protracted effort to 
        delay decision making on judicial appointments whether or not 
        the appointee was, ultimately, confirmable.

    In spite of efforts last year in the aftermath of strong criticism 
from the Chief Justice of the United States, the vacancies facing the 
federal judiciary remain at 65 with 17 on the horizon and the vacancies 
gap is not being closed. We have more federal judicial vacancies 
extending longer and affecting more people. Judicial vacancies now 
stands at approximately 8 percent of the federal judiciary. If one 
considers the additional judges recommended by the judicial conference, 
the vacancies rate would be over 15 percent and total over 135.
    Nominees deserve to be treated with dignity and dispatch--not 
delayed for two and three years. We are seeing outstanding nominees 
nitpicked and delayed to the point that good women and men are being 
deterred from seeking to serve as federal judges. Nominees practicing 
law see their work put on hold while they await the outcome of their 
nominations. Their families cannot plan.
    Certainly no President has consulted more closely with Senators of 
the other party on judicial nominations, which has greatly expanded the 
time this Administration has taken to make nominations. The Senate 
should get about the business of voting on the confirmation of the 
scores of judicial nominations that have been delayed without 
justification for too long.
    Just last month, in his remarks to the American Bar Association, 
the President, again, urged us to action. He said: ``We simply cannot 
afford to allow political considerations to keep our courts vacant and 
to keep justice waiting.'' We must redouble our efforts to work with 
the President to end the longstanding vacancies that plague the federal 
courts and disadvantage all Americans. That is our constitutional 
responsibility. I continue to urge the Senate and, in particular, the 
Republican leadership to attend to these nominations without 
obstruction and proceed to vote on them with dispatch.
    I thank the Senators who have come to introduce these nominees to 
the Committee. I look forward to the Committee completing its 
consideration of all of the nominations included in today's hearing and 
pending before it and urge the Senate to vote without further delay on 
the nominations that the Committee has favorably reported.

    Senator Kennedy. And I just want to say to Mr. Marshall, we 
have a wonderful woman, Nancy McGillivary, who was one of the 
first three women appointed during the Clinton administration 
as a U.S. Marshal.
    There were a lot of questions initially when she took over 
that responsibility, but I can just tell you she has won 
absolute plaudits for her professionalism and her service. So I 
just want to tuck that in the back of your mind.
    Mr. Marshall. Yes, sir, Senator. I have worked with her on 
several committees and know her well.
    Senator Kennedy. Thank you.
    The Chairman. We all know why Senator Kennedy is such an 
effective politician, don't we? [Laughter.]
    He never misses an opportunity, let me tell you.
    John, we are very proud of you. You and Goodie are going to 
control the country, I think, in the future. You are both very, 
very nice people, and very, very good people and accomplished. 
We are very proud that you are having this opportunity.
    Mr. Dickinson, we are pleased with your record and what you 
are able to do in your chosen field and in this calling that 
you have received.
    I have to say that the Marshall family certainly deserves a 
lot of accolades for what your family has been able to 
accomplish. And I join in Senator Kennedy's praise that this 
family is a family of public service, doing public service, and 
doing it in the highest way.
    I knew your father pretty well, really, and I had great 
admiration for him. He was a pioneer in the days when it was 
really, really tough to do anything, and who risked his life 
and had a lot of guts, a lot of fortitude, a lot of courage to 
do what he did. And I just want you to know that you have a lot 
to live up to because your mom is even better.
    Mr. Marshall. Thank you, Mr. Chairman.
    The Chairman. So you are going to have to live up to this, 
and I am going to watch you everyday.
    Mr. Marshall. Thank you very much, Senator.
    The Chairman. We are glad to have you here.
    Would either of you care to make a statement to the 
committee? You can if you want to.
    Do you mind, Mr. Dickinson, if we go with Mr. Marshall 
first and then we will come to you?
    Mr. Dickinson. Fine.
    The Chairman. OK.

 TESTIMONY OF JOHN W. MARSHALL, OF VIRGINIA, TO BE DIRECTOR OF 
                   THE U.S. MARSHALS SERVICE

    Mr. Marshall. Mr. Chairman, Senator Kennedy, I am honored 
to appear before you today. I would like to begin by 
introducing members of my family in attendance--my wife, Jean; 
our daughter, Melonie; and my mother, Mrs. Cecelia Marshall. 
Our other daughter, Cecelia, is attending her second week of 
classes at the Savannah College of Art and Design. My brother, 
Thurgood Marshall, Jr., was not able to attend today due to a 
scheduling conflict. The unwavering support, confidence, 
guidance and love of my family have brought me to where I am 
today.
    To say that my appearance before you as President Clinton's 
choice to serve as the next Director of the U.S. Marshals 
Service is a truly humbling experience would be quite an 
understatement. If confirmed, it will be my honor and privilege 
to lead the Marshals Service into the 21st century.
    The U.S. Marshals Service, which celebrated its 210th 
birthday last Friday, is the oldest Federal law enforcement 
agency. I have had the privilege of serving as U.S. Marshal for 
the Eastern District of Virginia since June 1994. In addition 
to overseeing the operation of the district, I have served on 
several committees which have given me valuable experience with 
the agency on a nationwide basis. As the Chairman of the 
Leadership Council, I have seen firsthand the fine work 
performed on a daily basis by the men and women of the Marshals 
Service, both in the field and in headquarters.
    The Marshals Service, created by the Federal Judiciary Act 
of 1789, occupies a uniquely central position in the Federal 
judicial system. We take tremendous pride in having the 
responsibility of protecting the Federal judiciary and 
providing security in the 800 judicial facilities throughout 
the 50 States, Guam, Northern Mariana Islands, Puerto Rico, and 
the U.S. Virgin Islands. This critically important task of 
safeguarding the Federal judicial system remains our most 
important mission.
    Another major role in the judicial system for the Marshals 
Service is the custody and transportation of pre-trail and 
unsentenced Federal prisoners. The Marshals Service has 
approximately 32,700 detainees in custody on any given day. 
Annually, we arrest more Federal fugitives than all other 
Federal law enforcement agencies combined. In just the past 5 
years since I have been a U.S. Marshal, the Service has 
arrested over 83,000 Federal fugitives.
    The Witness Security Program established by Congress 28 
years ago and given to the Marshals Service to manage continues 
to operate with a perfect record; that is to say that not one 
of the over 7,000 protected witnesses who has followed the 
established rules has ever been killed as a result of their 
testimony.
    The Marshals Service is also responsible for the management 
and disposal of fees and forfeited properties acquired by 
criminals through illegal activities. We are proud to report 
that the General Accounting Office found no material weaknesses 
or deficiencies in their January 1999 audit of our program.
    Earlier, I alluded to the professional women and men of the 
U.S. Marshals Service. We have all heard the old saying that 
actions speak louder than words. While our outstanding program 
achievements which I have noted certainly illustrate that we 
truly are an agency of actions rather than words, the 
tremendous pride and dedication of our operational and 
administrative employees is best illustrated when you take into 
account the hiring freeze we have been under since January of 
this year.
    Through teamwork, personal sacrifice, and tremendous pride 
in our agency, we have been able to maintain our high 
performance level. My first priority, if confirmed, will be to 
take the necessary steps to remedy our budget shortfall so that 
our hiring freeze can be lifted.
    In closing, President Lincoln once said, ``I will prepare 
and someday my chance will come.'' During my 19 years in law 
enforcement, I feel that I have been preparing, and now I am 
hopeful that this committee will provide me with the chance to 
lead the finest Federal law enforcement agency into the next 
century.
    I sincerely thank you for affording me the opportunity to 
appear before you today and I look forward to answering your 
questions.
    The Chairman. Thank you very much.
    Mr. Dickinson, do you care to make a statement?

    TESTIMONY OF Q. TODD DICKINSON, OF PENNSYLVANIA, TO BE 
             COMMISSIONER OF PATENTS AND TRADEMARKS

    Mr. Dickinson. Thank you, Mr. Chairman, members of the 
committee. Thank you for the opportunity to appear before you 
today. I would also like to take the opportunity to thank 
Secretary Daley for recommending me, and to the President for 
nominating me to this important post. I have been involved with 
intellectual property my entire career, and for me this is a 
tremendous honor and somewhat humbling experience to be 
considered for the opportunity to serve in this capacity.
    Mr. Chairman, almost 2 years ago I left my hometown of 
Philadelphia, where I practiced in a law firm, and came to 
Washington, DC, to serve in this administration. Indeed, it was 
over a year ago--just over a year ago I was considered by this 
committee and later confirmed by the full Senate for the 
position of Deputy Assistant Secretary of Commerce and Deputy 
Commissioner of Patents and Trademarks, and I very much 
appreciate the courtesy and consideration you and your 
committee showed me at that time.
    During my service as Deputy Commissioner of Patents and 
Trademarks, it has been a great pleasure and opportunity to 
work with you and the other members of the committee and your 
staff on a variety of critical issues. During that process, one 
of the things that I found particularly gratifying is the 
extent to which intellectual property issues are addressed on a 
nonpartisan basis. This is a tradition which I believe is in 
our Nation's best interest and one which I have tried to follow 
during my time in office.
    I believe that no single issue is more important to shaping 
the future growth and development of the world economy than 
intellectual property. From biotechnology, to semiconductors, 
to the Internet, the people who make decisions about 
investment, research and development rely on strong 
intellectual property protection. Without a strong mechanism to 
incent and protect that investment, our Nation's economy would 
not be growing as fast as it is today.
    Regarding the U.S. PTO, I strongly believe that managing 
the agency's growth, ensuring the high quality of our products 
and services, and maintaining America's position as an 
international leader in intellectual property are the key to 
this agency's and our Nation's success.
    Several initiatives we have undertaken this year are moving 
us strongly in that direction. We, for example, have put our 
patent and trademark database up on the Internet, freely 
searchable. We have established an Office of Quality Management 
to reorganize and consolidate our quality management function, 
and we have established the Office of Independent Inventor 
Programs to deal with the unique needs of one of our most 
important constituencies.
    I look forward to working with this committee to help 
ensure that the PTO is given the resources and flexibility it 
needs to meet all of our challenges, and I look forward to 
working with the committee and the intellectual property 
community on the many domestic and international intellectual 
property issues that are before this committee. I also want to 
thank friends and supporters that are here today to support me, 
and also thank many of the supporters in the intellectual 
property community for their support--the INTA, AIPLA, BIO, and 
others.
    Again, Mr. Chairman, thank you for the opportunity to 
appear before you today and I am happy to answer any questions 
as well.
    [The prepared statement of Mr. Dickinson follows:]

                Prepared Statement of Q. Todd Dickinson

    Mr. Chairman and Members of the Committee: Thank you for this 
opportunity to appear before you today. I want to thank you, Senator 
Specter, for your introduction and support. I would also like to thank 
Secretary Daley for recommending my nomination as Assistant Secretary 
of Commerce and Commissioner of Patents and Trademarks and the 
President for nominating me to this important post.
    Mr. Chairman, almost two years ago, I left an intellectual property 
practice at the law firm of Dechert, Price, and Rhoades, in 
Philadelphia and came to Washington, D.C. to serve in this 
Administration. Indeed, it was just over a year ago that I was 
considered by this Committee, and later confirmed by the full Senate, 
for the position of Deputy Assistant Secretary of Commerce and Deputy 
Commissioner of Patents and Trademarks. I very much appreciate the 
courtesy and consideration you gave my nomination at that time, Mr. 
Chairman.
    During my service as Deputy Commissioner of Patents and Trademarks, 
it has been a great pleasure and opportunity for me to work with you, 
the other members of this Committee, and your staff on a variety of 
important issues. One of the things that I have found particularly 
gratifying is the extent to which intellectual property issues are 
addressed on a non-partisan basis. This is a tradition which I believe 
is clearly in our nation's best interest and one which I have tried to 
follow during my time in office.
    Prior to joining the Commerce Department, I spent almost two 
decades working as an intellectual property practitioner, first in 
Pittsburgh, then in San Francisco, and most recently in Philadelphia. 
During that time, I worked in all aspects of intellectual property law 
and management, including patent prosecution, trademark and copyright 
protection, strategic development and counseling, brand management, 
licensing, technology transfer, and litigation.
    I have also had the good fortune to represent the entire spectrum 
of intellectual property constituencies--from individual inventors and 
educational institutions to small businesses and corporation clients--
in a wide range of disciplines, including biotechnology, refinery 
processing and chemical manufacture, environmental technologies, 
pharmaceuticals, health-care products, business and financial software 
and recreational equipment.
    Throughout my career, I have also tried to devote myself to public 
service and to giving back to my community. Indeed, while working for 
Chevron in San Francisco, I was very proud to be given the opportunity 
to serve the public when Senator, then Mayor, Feinstein appointed me to 
serve as Chair of the San Francisco Parking Authority. Since that time, 
I have also served in a number of other public capacities.
    It is, therefore, a distinct honor for me to be before you today as 
the nominee to head the Patent and Trademark Office, one of the oldest 
agencies in the federal government, and an agency with a 
Constitutionally mandated goal of ``promot[ing] the progress of science 
and the useful arts, by securing for limited times to * * * inventors 
the exclusive right to their * * * discoveries.''
    I believe that no single issue is more important in shaping the 
future growth and development of the world economy than intellectual 
property. From biotechnology to semiconductors to the Internet, the 
people who make decisions about investment, research, and development 
rely on strong intellectual property protection. Without a strong 
mechanism to incent and protect investment, our nation would not be 
growing as fast as it is today. Accordingly, the PTO plays an active 
role in advising other Executive Branch agencies on domestic 
intellectual property laws and plays a leadership role in formulating 
international intellectual property policy.
    I strongly believe that managing the agency's growth, ensuring the 
high-quality of our products and services, and maintaining America's 
position as the international leader in intellectual property are the 
keys to the agency's success. That is why since coming to the PTO I 
have focused my efforts in three key areas.
    First, with respect to automation, this past March the agency added 
to its Web site 20 million pages of images to the searchable text of 
the 2 million patents granted since 1976. This electronic library of 
late 20th century science and technology is available free on PTO's Web 
page and was, in part, prompted by Senator Hatch and Senator Leahy's 
continued interest in making important technical information accessible 
to rural areas.
    Today, all pending and registered trademarks are also available on 
line and we are well on our way toward making all 6 million plus 
patents and one million plus trademarks available free on the Internet 
by 2001. In addition, I am pleased to report that the PTO now accepts 
electronic Trademark applications and that we have received over 12,000 
such applications in just the last nine months.
    Second, I came to the PTO concerned about its relationship with 
independent inventors. Having represented independent inventors in 
private practice, I understand their concerns and am working hard to 
address them. That is why we established the Office of Independent 
Inventor Programs, an initiative aimed at meeting the special needs of 
an important PTO constituency--inventors working for themselves or for 
small business.
    Third, to keep our patent system strong, we must invest in the 
management and efficiency of the PTO. As you know, Mr. Chairman, our 
nation's intellectual property system is more robust than ever before, 
and business is booming at the Patent and Trademark Office. Patent 
applications increased 25 percent in the last two years and trademark 
filings are up nearly 25 percent this year alone.
    The PTO, unlike many government agencies, is very much a business. 
In order to meet the needs and demands of our customers, we need to 
ensure that we have highly-skilled staff who are equipped with the 
resources they need. I am pleased to report that we are successfully 
managing the agency's growth through strategic hiring of a diverse, 
well-educated workforce, as well as increased utilization of state-of-
the-art automation technology.
    To handle the explosive growth in patent and trademark filings, the 
PTO hired more than 700 new patent examiners last year and is on track 
to hire an additional 800 patent examiners this year. In the trademark 
arena, 230 new trademark attorneys have been hired since November 1997, 
nearly doubling the size of that workforce.
    We are also making great strides in improving the efficiency of our 
work. For example, this year we have reduced pendency for first action 
on trademark applications from 7.9 months to 4.9 months. We are also 
well on our way to reducing cycle time for patent applications to 85 
percent of all patents in 12 months by 2001 and all patents in 12 
months by 2003.
    Turning to the international arena, the PTO will continue to work 
on strengthening the international intellectual property system and 
ensuring that U.S. intellectual property holders--whether patents, 
copyrights, trademarks, or any of the other forms of intellectual 
property--enjoy sufficient legal protection around the world. In the 
next year, I anticipate that the PTO will be participating in the 
following developments:

    First, we will be leading the United States' delegation at a WIPO 
Diplomatic Conference to develop a Patent Law Treaty which, we hope, 
will establish shared procedural and application standards for patents 
around the world. After working for years on these standards, it is our 
hope that we will also be able to turn to the long-term question of 
converging substantive standards for patenting.
    At the same time, we will also be working on simplification of the 
existing Patent Cooperation Treaty. I believe that streamlining and 
modernizing this treaty will help American industry preserve its 
ability to commercialize American ingenuity all over the world.
    On the copyright front, the PTO will continue to lead the 
Administration's efforts in international discussions about audio-
visual performers rights and protection for non-copyrighted databases--
two issues left open after the 1996 Diplomatic Conference which 
established the WIPO Copyright Treaty and the WIPO Performances and 
Phonograms Treaty. On the issue of audiovisual performers rights, the 
United States is committed to working in WIPO to achieve a compromise 
on the protection of audiovisual performers rights that will further 
the goals of all relevant U.S. interest groups, performers as well as 
film producers.
    Even with all these activities and achievements, Mr. Chairman, much 
work remains to ensure that the PTO can manage its growth and ensure 
high-quality products and services while maintaining our ability to be 
a strong advocate for our nation's intellectual property. We are 
blessed with the greatest intellectual property system in the world, 
and I am deeply committed to ensuring that we retain--and build upon--
that status well into the next millennium.
    I look forward to working with this Committee to help ensure that 
PTO is given the resources and flexibility it needs to do just that. 
And I also look forward to working with this Committee and the 
intellectual property community on the many domestic and international 
intellectual property issues that are before this Committee.
    Again, Mr. Chairman, thank you for the opportunity to appear before 
you today. Now I would be happy to answer any questions you might have.

    The Chairman. Thank you both. I want to swear you both in. 
Do you swear to tell the truth, the whole truth and nothing but 
the truth, so help you God?
    Mr. Dickinson. I do.
    Mr. Marshall. I do.

                      questioning by senator hatch

    The Chairman. Thank you. Let me begin with questions for 
you, Mr. Dickinson.
    In Florida Prepaid Post-Secondary Education Expense Board 
v. College Savings Bank, the Supreme Court found that Congress 
did not have the power to abrogate the State's 11th amendment 
immunity under the 14th amendment's due process clause. The 
United States intervened unsuccessfully to defend the law at 
risk; namely, the Plant Patent and Plant Variety Protection 
Remedy Clarification Act. Now, this appears to leave patent 
owners with no effective remedy against infringement of their 
rights by State institutions and may be the harbinger of 
exposure for other intellectual property rights as well.
    Can you tell us what you believe the impact of this 
decision on the Supreme Court's companion cases will be and 
what sorts of remedies, if any, might be appropriate for 
Congress or the administration to pursue?
    Mr. Dickinson. Thank you, Mr. Chairman. Let me start off by 
saying I am not a constitutional lawyer, I am an intellectual 
property owner.
    The Chairman. Sure.
    Mr. Dickinson. But let me also comment on the case a little 
bit. This is obviously, as you suggested, an extremely 
difficult issue. It is one which has caused great concern in 
the intellectual property community. Because if you follow the 
decision in its broadest terms it would suggest that States are 
free to infringe the intellectual property rights of 
intellectual property owners across this country. And that 
obviously the potential for that is obviously very, very 
significant.
    I think that the impact potentially is a great one, and I 
would hope that we could work with this committee to craft new 
legislation that would address minimizing that impact, 
hopefully reducing it down to nothing. And also we, I think, 
need to work with States who have also--the opinions, as I 
understand them, suggest that States obviously have the power 
to remedy this question, and perhaps we should also be working 
with States and State legislatures to deal with it.
    The Chairman. As you know, Senator Leahy and I have 
championed patent reform legislation in the Senate for a number 
of years. This is an important part of which would reorganize 
the Patent and Trademark Office to enable it to better respond 
to the needs of its customers, which are American businesses 
and innovators.
    The House of Representatives just recently passed its 
version of the Patent Reform legislation, H.R. 1907, which I 
understand is based upon the legislation this committee 
reported in 1997. Now, will the administration be seeking any 
additional changes to title VI of that bill--and that, of 
course, deals with patent and PTO reforms--or its Senate 
counterpart? And if so, what are they likely to be?
    Mr. Dickinson. Thank you, Mr. Chairman.
    As you correctly, again, point out, the legislation which 
the House passed was very heavily influenced by the legislation 
which you and your committee worked on in the last session. And 
I think many of us in the intellectual property community are 
very interested in seeing this legislation move forward.
    With specific regard to title VI, the administration has 
not taken a position formally yet on it, but we have been very 
heavily involved with the relevant House subcommittee and with 
your staff, in terms of dealing with a number of issues that 
are of a concern to us.
    I think one of the challenges we face is whether, because 
this is a very carefully crafted compromise, we want to go in a 
particularly strong direction in making changes or whether we 
are comfortable with the way the legislation is currently 
crafted. I think in most of its provisions, we are currently 
comfortable. But we have engaged in discussions with your staff 
and Senator Leahy's staff about the possibility of some 
additional changes.
    The Chairman. OK; well, we'd appreciate it if you would get 
a little more public about it. Because we'd like to pass that 
bill.
    Now, I spent quite a lot of time trying to curb the 
practice of diverting PTO fee revenue in the appropriations 
process to fund unrelated Federal spending. Although we have 
had some success in rescinding the patent fee surcharge that 
was so often raided for this purpose, congressional 
appropriators now seem to have turned to a practice of carrying 
over, which is an increasingly--carrying over an increasingly 
larger amount of PTO user fees each year, which still prevents 
the PTO from spending this money that it collects when 
collected.
    Now, I am told that Congress might increase the amount of 
carryover for fiscal year 2000 to as much as $272 million. What 
will be the impact on PTO and its operations if that scenario 
becomes a reality?
    Mr. Dickinson. Thank you, Mr. Chairman. As you can 
appreciate, that possibility--and it is a very real one because 
the House appropriations bill which is currently in conference 
with the Senate bill does indeed take another, or is proposed 
to take another $51 million from our fee revenue and put it 
into the carryover. That impact could be very significant on 
operations.
    We have been embarking, for example, on a fairly 
substantial hiring program to meet what have been enormous 
increases in our workload. We have had a 25-percent increase in 
our workload on the trademark side this past year alone, we 
have got a 25-percent increase in our patent workload, patent 
application workload, in the last 2 years. These were 
unforeseen in many ways. And we need to bring the resources to 
bear to take care of that. And if there are significant 
cutbacks or changes in our request, that could very, very 
materially impact our work, the quality of our work and the 
pendency of our work, which are the two key measures.
    The Chairman. Well, as you know, we are interested because 
the burdens have shifted 25 percent upward, and we are 
interested in what kind of approaches you are going to take to 
try and get approvals through as quickly as possible.
    So, naturally, that is one of the charges I hope we can 
give to you here as we move ahead with your nomination because 
we would like to see that work a little bit better. And I kind 
of resent the games that are played with those monies. On the 
other hand, it is pretty tough, on the appropriations 
committees today, too, to find the monies that they need just 
to keep things going throughout the Government.
    Let me turn to you, Mr. Marshall. After the bombing of the 
Federal building in Oklahoma City and the letter bomb that 
killed the 11th Circuit Federal Judge in Birmingham several 
years ago, what steps has the Marshal Service taken to increase 
the protection of Federal courthouses and Federal judges 
whenever they are not at the courthouse?
    Mr. Marshall. We conducted a vulnerability assessment 
shortly after the bombing in Oklahoma City, which has resulted 
in several upgrades, enhancements in our courthouses throughout 
this country. We are still lacking in a majority of the 
courthouses, and we are pressing on to get the funding to make 
the additional security changes that we need to do.
    As far as the judges when they are off-site, which is where 
they are the most vulnerable, when they have left the 
courthouse, recently our Judicial Security Division came out 
with a very detailed booklet for the judges giving them tips on 
their security, off-site security. So, in that regard, we have 
already addressed it, but we will continue to. And that is our 
primary mission, and we will do everything we can to enhance 
the security of the judiciary.
    The Chairman. Thank you. Your service on the Deputy 
Candidate Review Panel, which reviewed applications for 
employment for the Marshal Service, in my opinion, was very 
important. Without trustworthy U.S. marshals, neither judges 
nor persons in the witness security program would be safe. 
Given the increasing threat of domestic and foreign terrorism 
and or organized crime, the integrity and loyalty of employees 
of the U.S. Marshal Service is more important than ever.
    Now, if you are confirmed as director, what steps will you 
take to ensure that the Marshal Service hires persons with the 
highest integrity and qualifications?
    Mr. Marshall. Mr. Chairman, if confirmed, I would see to it 
that we continue our current Deputy Review Panel, which is made 
up of two U.S. marshals and an instructor from our academy at 
Glencoe. They are the final step before any deputy is hired. 
They look at the entire package, including the background. And 
over the years, since that process started in 1995, we have 
made significant improvements, beginning with the interviews, 
on through the process. So I would continue that process to 
make sure that we get the most qualified candidates.
    The Chairman. As a former State trooper in the State of 
Virginia, you have a great deal of experience with State law 
enforcement. And as the U.S. marshal for the Eastern District 
of Virginia, you have had Federal law enforcement experience as 
well. Federal judges, especially circuit judges, often travel 
substantial distances to courthouses as part of their judicial 
duties.
    Now, what types of protections do these Federal Circuit 
Court of Appeals judges have when they are on the road? And do 
you believe that increased cooperation with various State law 
enforcement agencies would provide better protection for these 
officials?
    Mr. Marshall. Mr. Chairman, I do agree that coordination 
with the State and local officials would be of tremendous 
assistance to us. We do depend on our judges. If there is any 
information that we are not aware of which could be regarded as 
a threat, any inappropriate communication, that they let us 
know about that, and we do investigate it. And in the event 
that a judge is going to be traveling, we do do a threat 
assessment, and if necessary, we provide protection during that 
trip.
    The Chairman. Administration of the Federal Asset 
Forfeiture System is one of the important duties for which the 
U.S. Marshal Service is responsible. In recent years, however, 
the Federal Forfeiture System has come under severe criticism. 
Now, your service on the Asset Forfeiture Leadership Council 
makes you especially qualified to oversee the operation of the 
Forfeiture System.
    If you were confirmed as director, what improvements, if 
any, would you make or would you suggest and implement for the 
administration of the Forfeiture System?
    Mr. Marshall. Mr. Chairman, as a member of the Asset 
Forfeiture Leadership Council, I work closely with the U.S. 
attorneys asset forfeiture group, also, and we jointly crafted 
a best-practices memorandum of understanding to be signed by 
each U.S. attorney and U.S. marshal, and they have been signed 
by the majority of the U.S. attorneys throughout the country.
    Our primary role is in the preseizure planning, is where we 
have been lacking in the past, and I will work towards, if 
confirmed, to improving our role in preseizure planning.
    The Chairman. Thank you.
    Senator Sessions, we will turn to you.

                    questioning by senator sessions

    Senator Sessions. Thank you, Mr. Chairman.
    Mr. Marshall, I think, as you know, the forfeiture 
questions are real serious now, and we have some legislation 
that I believe probably go too far, and other members, in 
curtailing the legitimate ability of the Marshal Service and 
the U.S. attorneys and other Federal agencies from seizing ill-
gotten, illegally attained, illegally used assets that I see no 
basis for them to keep.
    Why should a criminal be able to commit a criminal activity 
and be able to keep the profits of it even? And then we pay to 
put them in jail. It's really an illogical thing. I know there 
have been some concerns about the practice, that some horror 
stories have been told. From what I can see, most of those are 
in State court, not done by Federal court, but some have been 
done in Federal court. So I am working with a number of 
persons, including the--and with the Department of Justice to 
draft some legislation I think will curtail the abuses in that 
area and improve--curtail the abuses, but not gut the ability 
of the Department to act.
    Let me ask you, are you aware of the statistical changes in 
asset forfeiture cases over the last, say, half-dozen years 
filed by the Marshal Service?
    Mr. Marshall. As a whole, over the last few years, our work 
has gone done in the asset forfeiture area.
    Senator Sessions. I do not know what is causing that. Do 
you have an opinion for why those cases have dropped off?
    Mr. Marshall. I think possibly it is our increased role in 
preseizure planning, which we are able to provide information 
to the seizing agencies that they do not come up on in their 
investigation. So sometimes a property that may look like a 
good one to forfeit, actually, when we take a good look at it, 
is not one that we should proceed with.
    Senator Sessions. I think that is a legitimate concern of 
the Marshal's Office. But I think is it not also true that the 
Federal Department of Justice policy has reduced the 
cooperative partnership, the adoptive forfeitures, in which a 
case may be made by the State system they could be forfeited in 
State or Federal, and the Federal Government is taking less of 
those cases?
    Mr. Marshall. That could be possible, Senator.
    Senator Sessions. I think that is part of it. I think there 
are a lot of advantages to a local law enforcement agency to 
bring cases in Federal court. It also melds the agencies more 
as partners, instead of competitors.
    Mr. Marshall. Yes.
    Senator Sessions. When you are working together to help a 
city police chief forfeit a complex amount of property from a 
criminal and that chief gets to benefit, at least to some 
degree, from the forfeited assets, you build a bond, do you not 
agree, that is important?
    Mr. Marshall. I agree. Yes, sir, Senator.
    Senator Sessions. So I just hope that your experience on 
this committee will lead you to be active in that.
    And, also, I will ask you to look at the staff you have 
assigned to it. I remember probably in the eighties, late 
eighties, when marshals were given special rank or high pay-
grade positions for forfeiture specialist. And it troubles me 
that if we are having a decline, maybe we do not need high-paid 
forfeiture specialists if they are not carrying on a basic 
level of work. So just from a management point of view, I would 
hope that you would look at that and encourage and promote 
that.
    Do you, personally--how do you feel about that? Do you, 
personally, feel that the Marshal Service should be active in 
partnering with State and local law enforcement in forfeiture 
of assets?
    Mr. Marshall. Having spent 14 years with the Virginia State 
Police, yes, sir, Senator. I am very supportive of that. And it 
is one of the tasks that I enjoy doing, is when we have an 
equitable sharing check to be able to sign that check and take 
part in the presentation of it. Partnership is crucial in law 
enforcement throughout the country.
    Senator Sessions. I think a lot of people start theorizing 
about forfeiture, and they do not understand the reality. These 
are ill-gotten gains that the criminal should not be able to 
keep, and it is a practical partnership, teamwork effort, State 
and Federal, and I can tell that you understand that.
    Mr. Marshall. Thank you.
    Senator Sessions. And I know you will do well at that.
    On the question of patents, Mr. Dickinson, what is the 
status of the patent building that is being talked about?
    Mr. Dickinson. The building, Senator?
    Senator Sessions. Yes, the new building.
    Mr. Dickinson. About 1\1/2\ months ago, the GSA announced 
that they have completed the process of evaluation of final 
bids. They have announced which of the final bids they were 
prepared to award the lease to. That is a company called Elcor, 
Inc., and the site which they proposed, which GSA proposed to 
build it on is in Alexandria, about 3 miles down the road from 
where we are now, the so-called Carlisle site right near the 
King Street Metro stop.
    There is some ongoing litigation at the moment. Our 
landlord is concerned about us moving out of our current 
facility, as you can imagine, and he has brought several 
actions in Federal court to have the courts take a look at 
that. We have won one of those, and the other one is pending 
now in the District Court for the District of Columbia, and the 
judge has that under consideration now with regards obligations 
under NEPA.
    Senator Sessions. What is the latest cost of this new 
building, projected cost?
    Mr. Dickinson. The developer and GSA, to my understanding, 
has not projected an actual cost for the building itself. We 
will be leasing the building, so there has not been a final 
cost estimate for the actual building itself. The committee 
that reviewed this from GSA reported back to me, and we were 
very pleased by this, that the winning bid will allow us to pay 
less in rent per square foot than we currently pay. So that's 
something that we're very pleased with. We are, hopefully, 
saving a few dollars.
    Senator Sessions. Is that the total for the whole total 
cost?
    Mr. Dickinson. That is my understanding, yes.
    Senator Sessions. Including the parking area and all of 
that?
    Mr. Dickinson. They charge us rent for all of the parking 
and all of the office space, yes, Senator.
    Senator Sessions. Well, the numbers that I saw when I was 
on the Public Works Committee for the patent building were 
shocking, I thought, and I had serious doubts about whether we 
had to have a new one. I do not know where you are now in that 
process. But I was concerned about it.
    Let me ask one thing, and, Mr. Chairman, I will finish. You 
said, I believe, in remarks on Tokyo, about--you said, in 
response to the first question,

          Most would state that there should be a global patent 
        in 2010. All of us can list the probable benefits of a 
        global patent system. I'm sure that we would all 
        believe that such a system would reduce costs for 
        inventors and make it dramatically simpler to obtain 
        protection and would provide uniformity of protection 
        in the world.

    I think you mentioned that later in another address, maybe 
previously through the International Patent Society in 
September 1998 you say, ``A global patent system is, in 
principle, a very worthy goal.''
    Is it your position we need a global patent system?
    Mr. Dickinson. I think that, yes, it is definitely my 
position that we need one. I think we need to move towards, 
particularly today, when the Internet and other--and the 
globalization of the economy leads to a situation where 
inventors, small and large, and particularly small inventors, 
independent inventors, are much more susceptible to 
infringement and much less likely to be able to have remedies 
because of the cost of the current system worldwide. I think it 
is very important that we move in that direction.
    There is not a consensus yet in the world of how to do 
this. There are a number of suggestions. Do we have one patent 
organization that issues patents? Do we give full faith and 
credit to other's patents? Do we validate the work of other 
offices? There are a lot of suggestions that have been laid 
out, and we need to work towards finding an international 
consensus. But there is a consensus that we need to have 
broader international protection and move away from the cost 
associated, in particular, with having a series of national 
protections today.
    Senator Sessions. Are you aware that there are perils in 
that, in that high-tech patent items you can lose control of 
them, that other nations who would have access to that could, 
in fact, cause a company to lose their patent protections that 
have been preserved pretty well in our current system? And is 
it not a fact that there are a number of nations who 
steadfastly like to counterfeit and compete in violation of 
American patents?
    Mr. Dickinson. Enforcement is one of the biggest challenges 
we face worldwide. I think that is also why having the TRIPS 
agreement in place as part of GATT is also extremely beneficial 
to this. This would require countries who want to be part of 
the WTO to have a minimal threshold level of intellectual 
property in their own country. And I think that is one of the 
key ways we can get at this enforcement problem worldwide. But 
you have definitely put your finger on one of the key issues.
    Senator Sessions. There was, apparently, one article that 
we came in 1996, Mr. Lehman, who was serving at the time as 
U.S. Commissioner of Patents, sought to give Beijing CD-ROM's 
containing the entire patent database of 160 years. Are you 
familiar with that?
    Mr. Dickinson. I am, indeed.
    Senator Sessions. It came out in the Cox report.
    Mr. Dickinson. Indeed.
    Senator Sessions. Do you agree that that was a wise thing?
    Mr. Dickinson. We are not--we at this time are not going to 
give those--the Congress has forbidden us from giving the CD's 
or the bulk tapes of our patent database to the Chinese 
government.
    Senator Sessions. Do you think that was a wise idea for him 
to give away this information, database?
    Mr. Dickinson. Well, it is not my--it is probably not best 
for me to criticize or comment on my predecessor in that way. 
This is publicly available information. But I think that the 
Congress has expressed their concern about it, and we are 
following their direction.
    Senator Sessions. It affects me a little bit in how I vote 
for a man in the Patent Office and how you react to that. To 
me, that was a very unwise thing. There may be other 
opportunities of areas in which the law is somewhat unclear, 
and I would like to know whether the extent to which you are so 
committed to an international patent procedure that you would 
consider that a wise act as a patent commissioner to give up 
this information.
    Would you tell us how you would personally feel about it?
    Mr. Dickinson. Mr. Senator, that information is publicly 
available. If someone wanted to come to the office and buy hard 
copies of all of our patents, they could do that today. That is 
one of our goals, is to make the dissemination of our 
information as widely available as possible.
    We understand the concerns with regard to the specific 
situation in China. I think one of our bigger opportunities is 
to work with the Chinese to get their own system developed and 
in place. They have a good patent system. They have a fairly 
difficult and a system we work with regularly of enforcement. 
It is not nearly as good as we would like in China, and we work 
with them on a regular basis.
    Senator Sessions. Well, it is important.
    Mr. Chairman, thank you. We do have a lot of counterfeiting 
of that kind of thing around the world. China has been named 
repeatedly as being involved in that, and I hope that we will 
develop a national policy which protects our legitimate 
interest.
    The Chairman. Thank you, Senator Sessions.
    Senator Leahy.

                      questioning by senator leahy

    Senator Leahy. Thank you very much, Mr. Chairman.
    Mr. Marshall--I should say Marshal Marshall--you probably 
get tired of hearing that, but I am delighted to see you here, 
and Jean Marie and your daughter. And, of course, I am always 
delighted to see your mother, who is greatly admired by all of 
us here.
    I enjoy looking back, as I did when you became a marshal, 
at your background, nearly 20 years in law enforcement, going 
through the ranks in the Virginia State Police, and then to 
become a U.S. marshal. I think, frankly, the Marshals Service 
is fortunate to have you nominated as Director.
    I only have one question and it is just more of a 
philosophical one, or actually a managerial one. The U.S. 
Marshals Service gets involved more and more in the pursuit and 
apprehension of Federal fugitives even up in my State, and I 
wonder, are we using local police enough for that. I mean, you 
can only stretch yourself so thin, and I just ask you, from 
your own experience as U.S. Marshal in Virginia, but also 
before that in the Virginia State Police, do you think the 
Marshals Service could use local authorities more in the 
pursuit of Federal fugitives?
    Mr. Marshall. Definitely, Senator. I think the task force 
approach is the way to go. In Eastern Virginia, for the last 2 
years, for 3-month periods we conducted a joint task force in 
the city of Richmond with terrific results. It is definitely--
the task force approach as far as fugitive apprehension is the 
way to go, and certainly we depend on the State and the locals 
to help us in our investigations and we are more than happy to 
help them with theirs.
    Senator Leahy. Mr. Dickinson, we were talking about patents 
all being on CD-ROM's. Are those available for other people, 
the past--I mean, basically, the archives of the Patents and 
Trademarks, is that on CD-ROM now?
    Mr. Dickinson. Yes, it is.
    Senator Leahy. And who can have that? I mean, could Senator 
Hatch walk over and buy a copy of those, as Hatch Enterprises?
    Mr. Dickinson. If he had about $250,000, he could indeed 
walk over. The only--again, the only entity that we are 
prohibited from selling it to is the Chinese government.
    Senator Leahy. So if Singapore bought it and then 
transferred it to China, I mean they could buy it. Once they 
bought it, it could go to anybody?
    Mr. Dickinson. Patent data has traditionally been publicly 
available. That is part of the theory behind the system is to 
make the--that is actually the basis of the patent system, is 
to make the invention public so that others can build on it and 
improve it and move technology forward.
    Senator Leahy. Well, of course, that is the reason for my 
question. I mean, somebody could go over there with a pencil 
and paper--and, of course, it would take forever to do it, but 
could sit down there and literally just copy all these things 
that are in the public record. Is that correct?
    Mr. Dickinson. That is true.
    Senator Leahy. Whether they are from the Chinese embassy or 
from the University of Vermont?
    Mr. Dickinson. That is true.
    Senator Leahy. I just didn't want anybody to think that we 
are suddenly giving out some amazing thing that is not 
available to any Chinese scholar or British scholar or German 
scholar or anybody else who might come here.
    What I do worry about is when other nations fail to protect 
the patents, trademarks, and copyrights of American owners. And 
I would ask you, if confirmed, that you be very, very 
aggressive in helping to protect us. Our intellectual property 
in this country is one of our most valuable assets. It is 
certainly one of our most valuable export assets. It helps us 
get the support for our schools, the educational system, 
everything, plus the millions of jobs it creates. If it is not 
respected in a world where international commerce is the rule 
of the day, then we lose all that. So I would urge you to be 
extremely aggressive in helping to protect that.
    Mr. Dickinson. I will.
    Senator Leahy. Mr. Chairman, I know all the questions have 
been asked. I think Mr. Dickinson is extremely well-qualified 
from having read his background. And, of course, John Marshall 
is somebody I have known and watched, and we have had the 
privilege of working with his brother in earlier days on this 
committee before he threw us overboard for another part of the 
Federal Government. I would hope that both of them would be 
confirmed quickly.
    Thank you.
    The Chairman. Well, thank you.
    We appreciate both of you being here. With that, I think we 
will just end this hearing. I think you both have acquitted 
yourselves well, and we will look forward to trying to get you 
confirmed.
    So, with that, we will adjourn until further notice. Thank 
you for being here.
    [The questionnaires of Messrs. Marshall and Dickinson are 
retained in the Committee files.]
    [Whereupon, at 10:36 a.m., the committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                         Questions and Answers

                              ----------                              


Responses of Q. Todd Dickinson to Questions From Senator Strom Thurmond

    Question 1. Mr. Dickinson, concerns have been raised for some time 
that it takes too long for the PTO to process patent applications. What 
concerns do you have in this regard, and do you have plans to try to 
speed the process for reviewing patent applications?
    Answer 1. I agree that it takes too long to process patent 
applications and I am committed to reducing pendency time. As you know, 
we are inundated with work. Between 1990 and 1998, the number of annual 
utility patent applications increased 42 percent, 12 percent of which 
was in the last year. We projected that in 1999 the number of 
applications would increase 7.2 percent over the 1998 numbers, but in 
the year-to-date, we are seeing 11.5 percent growth. Furthermore, as a 
result of the Federal Circuit's decision in State Street Bank, which 
validated the fact that business methods are patentable, we expect to 
see many more applications claiming methods of doing business to be 
filed at the PTO.
    Obviously, it is a challenge just to accommodate these large 
increases. To handle this growth, we're doing what any business would 
do: hire the best people and give them the best training and tools to 
do their jobs. Last year, we hired more than 700 new patent examiners 
and we are on track to hire 700 more this year, next year and the year 
after that. Of the new patent examiners we have hired, most are in 
computer and information processing technologies. Historically, the 
typical new hire examiner has had a bachelor's degree in engineering, 
chemistry, or physical sciences, but I'm pleased to tell you that one-
third of all examiners hired last year in the computer technology area 
have a Masters or a Ph.D. in engineering, computer science, or 
mathematics. In light of the decision in State Street Bank we are also 
looking for, and finding, examiners with the appropriate scientific 
training that also have academic backgrounds or experience in the 
business arena.
    The Examiner's we have now are highly skilled and highly educated; 
we have 450 Ph.D.'s and over 400 attorneys. However, we are also 
working hard to increase the amount of training these examiners 
receive--because that is key to increased productivity and higher 
quality of patent claims we allow and trademarks we register. In 1999, 
on the patent side, we will devote over 100,000 hours to training new 
examiners in PTO procedures. In addition to this training for new 
examiners, this year, we will provide our existing examiner corps with 
over 20,000 hours in legal training, over 30,000 hours in training in 
using our automated search systems, and over 5,000 hours in technical 
training. I have initiated a top to bottom review of our training by a 
Blue Ribbon panel of both internal and external experts, and we are 
actively considering even more substantial increases in training as we 
plan our 2001 budget.
    Some of the on-duty training for examiners is directed at the new 
electronic research tools we are putting at their command. Today, from 
her desktop, a patent examiner can electronically access the full text 
of all U.S. patents going back to 1971 and the images of all U.S. 
patents since 1790. In addition, examiners can access English-language 
translations of abstracts of 3.5 million Japanese patents with images; 
English-language translations of abstracts of 2.2 million European 
patents with images; and over 5,200 non-patent literature journals 
available through commercial services and materials we load in-house. 
In August, we will add IBM technical disclosure bulletins to the 
desktop resources available to our examiners.
    We has slashed the time it takes us to examine patents from over 18 
months a year and a half ago, to 10.9 months and dropping. Our goal is 
85 percent of patent in 12 months by 2001 and all patents in 12 months 
or less by 2003. We are also reducing the time it takes to print patent 
applications but starting the printing process immediately after 
mailing the notice of allowance. This has already shaved almost three 
months off of the time it takes to issue a patent.
    We will begin piloting the electronic filing of patent applications 
and the automated status check in the fall of 1999, allowing you to 
find out the status on-line. Electronic filing is much more complex 
because patent applications are not standardized, applications are 
complex and the examination process more complicated. Nonetheless, we 
are committed to the development and implementation of a complete 
electronic filing system for patents by 2003.

    Question 2. Mr. Dickinson, the Administration has attempted to and 
sometimes has been successful in diverting patent fees to fund other 
government programs, which has raised many concerns. Please discuss 
this issue and why it is important for the PTO to maintain the fees 
that it generates.
    Answer 2. I am very concerned about the diversion of our customers 
fees. The PTO is a fully fee funded agency. Our customers, both 
domestic and international, pay these fees in advance of receipt of the 
finished product or service and they expect their fees to be used only 
for the services we provide, much like a business. In the year 2000, 
for example, it is very likely that our customers will submit nearly 
600,000 patent and trademark applicants to the PTO. That is a 
significant level of activity. The customer files his or her 
application in anticipation of a timely and high quality patent issue 
or trademark registration. When PTO fees are used for other purposes, 
timeliness and quality suffer. In addition, our plans to reengineer and 
automate our functions to prepare for a technologically dependent 21st 
century also suffer when fees are withheld. More importantly, delayed 
patent and trademark applications adversely effect our economy by 
slowing the sharing of new innovations and commercialization of new 
products and services.
    In international intellectual property arenas, the US criticizes 
developing nations for using their patent fees as supplements to the 
national treasury. We have to ask ourselves if we are properly serving 
our customers when we use PTO fees for purposes other than those 
intended. I am concerned about future withholding of earned fees and 
intend to continue discussions within the Administration to formulate a 
strategy on PTO fees that addresses this issue, while keeping in mind 
the desires of both Congress and the Administration to balance the 
budget and reduce the national debt.

    Question 3. Mr. Dickinson, what are the primary issues facing the 
PTO today that you plan to address if confirmed?
    Answer 3. I believe that the Patent and Trademark Office needs to 
focus on three issues. First, we need to manage growth. That is, we 
need to meet the challenges created by the dramatic growth in the 
number of patent and trademark applications that we receive. We are 
aggressively moving to meet the many growth related challenges facing 
this agency. Second, we need to manage quality. That is, we need to 
change the way we look at ``quality'' in the Office and improve the 
quality of our products and services we offer. Finally, we need to 
manage the future. That is, we need to prepare our intellectual 
property systems--domestic and international--for the demands of the 
new global electronic marketplace.
    As to managing quality, we are adding staff and improving our tools 
and that will certainly solve many of our quality related problems. 
But, these steps are insufficient unless they ultimately result in 
ensuring that the quality of our products and services remains high. 
When I arrived at the Office, I began to ask questions about the types 
of quality improvement efforts that the Office had in place. I found 
the patent and trademark quality review organizations and disparate 
efforts to improve the quality scattered around the organization. For 
example, the quality review organizations were only looking at the 
``end product'' By the standards of the late 1960s or early 1970s, 
these were probably model programs. Today, however, most management 
experts agree that you cannot improve the quality of an organization 
and its products just by looking solely at the final product, 
particularly if you are trying to hold down costs. It was obvious that 
the Office needed an integrated quality management system. As a result, 
I reorganized and consolidated our quality efforts under one ``Quality 
Czar,'' responsible for coordinating quality throughout the agency.
    Managing the future is a complicated task. Today, goods and 
information can flow with unprecedented ease across borders. Effective 
protection for inventions, trademarks, works of authorship, and 
confidential business information must be available in all markets at a 
reasonable price. All of these forces are being driven by the fact that 
our economy is increasingly intertwined with the global economy. As to 
patents and trademark protection, our current model of essentially 
national and regional systems does not meet the needs of today's 
inventors or businesses whether they are small or large because we are 
now operating in a global economy.
    Increasingly, the international patent system--or lack thereof--is 
too cumbersome and expensive. Inventors cannot afford to obtain 
protection in all of the necessary markets around the world. Even big 
companies are now forced to forego protection for some markets or for 
some inventions and will have to forego more unless relief is provided. 
For smaller enterprises and individuals, the situation may be even 
worse. Protection for their inventions in critical markets may not be 
possible financially in the time frames dictated by law. At best, this 
situation will lead to decreased profitability for all and, at worst, 
extinction for smaller enterprises that traditionally supply 
significant technological advances. I am determined to seek to promote 
the strongest possible intellectual property protection for our 
citizens and businesses in the international marketplace.
                                 ______
                                 

  Responses of Q. Todd Dickinson to Questions From Senator Charles E. 
                                Grassley

    Question 1. Mr. Dickinson, certain allegations of inappropriate 
behavior have been brought to my attention that I'd like you to 
address. I understand that, according to these allegations, employees 
of the Patent and Trademark Office, specifically members of Patent 
Professional Association, may have been inappropriately restrained from 
contacting members of Congress about concerns they had regarding PTO 
office move and how PTO is run. If true, these are serious charges. It 
is important that the employees of the PTO not be subject to 
intimidation, threats of coercion, and that they be able to exercise 
their rights under the law. First, could you respond to these 
allegations? Have these concerns been resolved?
    Answer 1. I have never in any way restrained, threatened, 
intimidated or coerced any employee of the PTO, including members of 
the Patent Office Professionals Association (POPA), with respect to 
contacting Members of Congress to express their views on any subject 
whatsoever.
    The specific allegations you reference appear to originate in a 
message (copy attached) sent anonymously to a Member of Congress 
voicing displeasure with the result of negotiations we conducted with 
POPA this past spring over the PTO space procurement. These 
negotiations resulted in an agreement between management and leadership 
of POPA which included POPA's commitment, as an organization, to not 
oppose the PTO space procurement. It is my understanding that this 
negotiated resolution was taken to the Executive Committee of POPA for 
their consideration, and that ultimately both the Executive Committee 
and the full membership of the union voted to approve the agreement. 
The settlement agreement with POPA simply indicates that POPA as an 
organization has agreed to remain publicly neutral on our space 
consolidation project. Nothing in that agreement in any way restrains 
employees at the PTO from contacting Members of Congress about concerns 
they have regarding the PTO space procurement or about how the PTO is 
run.
    At some point after this vote, the attached e-mail was apparently 
sent anonymously to several Members of Congress voicing displeasure 
with the outcome and alleging inappropriate behavior on my part. I was 
contacted by those Members and promptly responded that there was no 
basis to the anonymous allegations. Those same Members referred the 
allegations to the General Accounting Office (GAO) to investigate and 
the GAO, after consultation with the Department of Commerce's Inspector 
General (10), responded by closing out the investigation (copy 
attached). Additionally, the IG advised the GAO that ``many of the 
allegations either appeared too vague to indicate a problem or related 
to matters that did not merit investigation.'' Moreover, when the 
President of POPA heard of these allegations, he, on his own 
initiative, wrote a letter (copy attached) to those Members verifying 
that those allegations were indeed false.
    I understand your concern about these allegations, and I take them 
very seriously. Let me reiterate that at no time have I caused any 
member of POPA or any employee of the USPTO to be restrained in any way 
from contacting Congress on any matter whatsoever. I agree that it is--
important that employees of the PTO be able to exercise their rights, 
and I will ensure that their rights continue to be respected.

    Question 2. Are you committed to ensuring that PTO employees will 
be free from an environment of intimidation and coercion, and that they 
will not be restrained from exercising their legal rights if you are 
confirmed as Commissioner of PTO?
    Answer 2. Absolutely. If confirmed, I will continue to ensure that 
PTO employees are free from an environment of intimidation and coercion 
and that they will be able to exercise their legal rights.

    Question 3. What have you done, to date, to accomplish this goal?
    Answer 3. Since coming to the PTO, I have made a significant effort 
to forge a new, positive working relationship with all of our unions, 
including POPA, by taking a new approach to this agency's labor-
management relations.
    Specifically, I charged the Office of Human Resources with 
developing a proposal for consideration by our executive committee 
dealing with those issues. Since that time we have successfully engaged 
an expert Labor Relations Blue Ribbon Panel which included the 
Department of Commerce's Office of General Counsel. This team conducted 
an assessment of the labor environment, interviewing over 40 management 
and union officials within PTO, and conducted a best practice study of 
successful partnership councils looking specifically at National 
Partnership Award winners.
    Armed with this information, we have begun implementing a labor-
management relations initiative which has, among other goals, re-
instituted our defunct Partnership Council, created a special group 
comprised of PTO managers and the three union presidents which meets 
biweekly, and increased staffing in our Human Resources Department. We 
held our first Partnership Council meeting on September 30, 1999, I 
believe that all of these steps have had a dramatic, positive, and 
permanent impact on our labor-management relations.
                                 ______
                                 

   Q. Todd Dickinson, Acting Patent Commissioner Offer to the Patent 
           Office Professional Organization (P.O.P.A.--Union)

    POPA is the union for the Patent Office examiners. They are engaged 
in a dispute over a new lavish patent office building which is $1.3 
billion. The most expensive government building in history. The 
building is to be paid for by inventors, who will lease it for 20 years 
and at that time will then have the right to buy the building at the 
going market price.
    The Union is also engaged in stopping ``corporatization'' of the 
patent office and their attendant loss of civil service status if the 
``corporatization'' goes through Q. Todd Dickinson, the Acting 
Commissioner of Patents addressed these issues to the President of the 
Union, in a meeting on Monday, February 21 and Tuesday, February 22nd. 
Particulars of his offer to the examiners follows which was an 
ultimatum offer which Acting Commissioner Dickinson claimed that 
Secretary of Commerce, Richard Daley sanctioned to the examiners have 
no recourse.

  1. The Union has a bank of 10,000 hours of work. The Acting 
    Commissioner told them he would take away their bank and see how 
    hard they would have to work to get it back in two years. (Note: If 
    there is no bank of hours there is not a Union organization.)

  2. The Union and it's members are prohibited from speaking to their 
    Congressman.

  3. The Acting Commissioner informed the Union executives that they 
    would be supportive of Q. Todd Dickinson. After this meeting he has 
    since gone to Congress and testified that all the Unions 
    substantially support him.

  4. The Union is to drop all litigation in disputes with the 
    management of the patent office on behalf of the Union's members. 
    The Union cannot represent its members under this edict.

  5. There will be no more Congressman Istook (R-OK) stunts in 
    Appropriations which took funding for moving from the current 
    patent office.

    The Acting Patent Commissioner on February 22 demanded a meeting of 
the union executive committee regarding the space for the proposed new 
patent building. At that meeting on March 1 the Union voted against the 
building. The Commissioner then demanded another meeting and met with 
union officials to discuss their obligations. The union vote was over 
thrown by three votes at the meeting demanded by the Acting 
Commissioner. As a result of the meeting he demanded, the Acting 
Commissioner was able to come to Congress and say all the unions 
substantially support him.
                                 ______
                                 
                    Patent Office Professional Association,
                                       Arlington, VA, May 20, 1999.
Re: Patent and Trademark Office

The Hon. William L. Clay,
Committee on Education and the Workforce,
U.S. House of Representatives, Washington, DC.
    Dear Congressman Clay: Recently, a letter from you to Mr. Q. Todd 
Dickinson, Acting Commissioner of Patents and Trademarks, has been 
circulated that pertains to allegations made by the National Patent 
Association about Mr. Dickinson's mistreatment of POPA and its members. 
Thank you for being concerned about our welfare. We are grateful that 
you are interested.
    However, the allegations about Commissioner Dickinson's 
mistreatment of us are false. I am the President of POPA and I did not 
contact the National Patent Association about this matter. Nor has 
anyone else within POPA been authorized to contact that association 
about this matter.
    POPA and the PTO have been working hard to establish an honorable 
working relationship. We have reached agreements on legal and technical 
training, transit subsidies, increased part-time slots, and office 
space while Commissioner Dickinson has been in charge. He has made a 
positive difference in labor-management relationships here at the PTO.
    For approximately the last two years, POPA and the PTO have been 
engaged in negotiations concerning, among other things, the allocation 
of office space in a new consolidated office complex for the whole 
agency. The PTO is currently in the midst of the procurement process 
for that office complex. At the end of the negotiations, Commissioner 
Dickinson demanded that we stop our opposition to the procurement 
process in return for favorable provisions on office space. The 
majority of our Executive Committee, POPA's governing body, thought 
that this was an acceptable truce since one does not reach a settlement 
and then fight against the settlement. But some within our organization 
are very upset about our decision to remain silent on the procurement. 
I am afraid that their passionate disagreement has lead them to do 
things that are unwise.
    Unfortunately, the information given to the National Patent 
Association is either a distortion created by what must have been 
multiple retellings of our space consolidation project negotiations, or 
deliberate disinformation. Either way, it is disturbing to have such 
false information circulated.
    Again, we appreciate your support in investigating these charges. 
It is good to know that you are willing to act to ensure honorable 
treatment.
            Sincerely,
                                           Ronald J. Stern,
                 President, Patent Office Professional Association.
                                 ______
                                 
           United States General Accounting Office,
                         Office of Congressional Relations,
                                 Washington, DC, September 9, 1999.
The Hon. William F. Goodling,
Chairman, Committee on Education and the Workforce, House of 
        Representatives.
    Dear Mr. Chairman: This correspondence responds to your July 26, 
1999, letter in which you presented various allegations involving the 
United States Patent and Trademark Office (USPTO). Generally, the 
allegations related to the implementation of new automated systems, 
procurement practices, the hiring and promotion of African-Americans, 
Illegal lobbying, and other issues. You stated that these allegations 
appeared to be very serious and warranted thorough review by our 
office.
    In considering the allegations raised in your letter, we consulted 
with the Office of the Inspector General (OIG) at the Department of 
Commerce. We contacted the Commerce OIG because that office routinely 
investigates internal matters at USPTO, such as the allegations raised 
in your letter. Moreover, as we explained to your staff, our limited 
resources presently constrain us from giving your request immediate 
attention. It was our intent to gather insights on these allegations 
from representatives at the Commerce OIG and to identify any of their 
audits or investigations that might address them.
    A representative of the OIG told us that the office had no efforts, 
either planned or ongoing, which directly related to the allegations. 
The OIG stated their interests in gaining a greater appreciation of the 
nature and severity of all the allegations in your letter. They welcome 
the opportunity to discuss them further with your office.
    The OIG also told us that many of the allegations either appeared 
too vague to indicate a problem or related to matters that did not 
merit investigation. For example, for the allegation concerning the 
implementation of new automated systems, the OIG noted some difficulty 
in identifying that a problem existed because no specific computer 
system was named. The office stated its continual commitment to 
monitoring the implementation of new systems being brought on line, 
most recently those related to the forthcoming decennial census. Also, 
in the contracting area, OIG informed us that the office had recently 
conducted reviews and investigations in response to claims similar to 
those made in your letter and found no conflicts of interests.
    The OIG also suggested that some allegations might be best 
addressed by other offices within the Commerce Department. 
Specifically, they recommended that issues relating to hiring and 
promoting African-Americans could be appropriately addressed by the 
department's Office of Civil Rights, and matters related to ethics in 
procurement and illegal lobbying might be referred to the Office of 
General Counsel.
    We would also like to suggest an additional course of action for 
your consideration. You may wish to present these allegations to the 
newly appointed USPTO commissioner and ask that he consider examining 
the merits of these issues as part of his leadership transition.
    We hope that our handling of this matter meets your satisfaction. 
As agreed with your staff, with this correspondence, GAO will close out 
your request that we probe into the allegations made concerning USPTO. 
As always, we thank you for your interest in our office. Please do not 
hesitate to contact us should you require assistance with other issues.
            Sincerely yours,
                                            Glenn G. Davis,
                                               Legislative Advisor.
                                 ______
                                 

  Responses of Q. Todd Dickinson to a Question From Senator Edward M. 
                                Kennedy

    Question 1. It has been brought to our attention that there have 
been a number of employee problems with operations at the Patent 
Office. In fact, a number of unfair labor practice charges have been 
filed against the PTO. Specifically, the PTO spent approximately 1.5 
billion over the last 15 years to develop and maintain automated data 
processing and search tools to support the business of examining and 
issuing patents. Over the next five fiscal years, the PTO plans to 
spend another 1.0 billion to deploy and maintain new systems which have 
less capability than the systems being replaced. The patent examiners 
of the PTO have publicly outlined the many inadequacies in the new 
system. In March 1999, patent examiners filed charges of unfair labor 
practices with the Federal Labor Relations Authority against the PTO 
for removing search systems without negotiating the impact of their 
removal and replacement. Additionally, in September 1999, patent 
examiners filed charges of unfair labor practices against the PTO for 
refusing to bargain over automated systems, which the PTO is developing 
and deploying. The Patent Office should be one of our most efficient 
agencies and legitimate employee concerns that affect the efficiency of 
the office should be addressed. Mr. Dickinson, what steps have you or 
will you take to address these employee concerns?
    Answer 1. Your question touches on two very important issues facing 
us in the PTO: leveraging information technology and changing the 
culture of our labor relations. As set forth in our fiscal year 2000 
Corporate Plan, we have established an ambitious agenda for 
transitioning the PTO into the next century. Automating our work 
processes is a key strategy to help us achieve PTO's performance goals. 
PTO also recognizes that labor and management must work collaboratively 
to successfully meet the demands of the PTO of the future.
    To that end, I have initiated an assessment of our current labor-
management relationships and conducted a best-practice study of 
successful labor-management partnerships found in both the public and 
private sectors. These efforts, along with my own numerous discussions 
and interactions with PTO employees, union representatives, and 
managers, have convinced me that, although we have had several success 
stories, we can and must improve our working relationships with all 
three unions.
    The unfair labor practices referenced in your question are being 
reviewed for possible resolution. PTO has every intention of working 
with the unions to address all legitimate employee concerns, and we are 
reemphasizing our efforts to involve the unions in the process at the 
earliest possible point. While even one unfair labor practice is one 
too many, I would note that we start the new fiscal year with 30 
percent fewer active ULPs than we had at the beginning of fiscal year 
1998. We are striving to improve upon this record in the coming fiscal 
year.
    Last month, I convened a group of over 100 senior managers and 
union representatives to launch a program aimed at enhancing our labor 
relations within the PTO. During this meeting, I stressed the 
importance of demonstrating in our daily actions skills such as 
honesty, effective listening, willingness to share ideas and 
information, and openness to other viewpoints. By urging all of the 
attendees to renew their commitment to these behaviors and attitudes, 
and by continuing to encourage training and facilitated activities in 
areas such as alternate dispute resolution, we will certainly make some 
progress in this regard.
    Additionally, I shared the need to link this relationship building 
with specific work related issues and opportunities. By having 
employees, union representatives, and management representatives 
jointly work as teams to solve problems, develop systems and programs, 
and meet new challenges, all parties are involved at the pre-decisional 
phase of the initiative, thereby further strengthening our relations. 
Just as importantly, by obtaining this pre-decisional input, the need 
for protracted and unproductive bargaining is greatly reduced. In fact, 
since June of this year, we have been following this concept in the 
development of our TEAM-XP project, a small-scale test of electronic 
patent examination and processing. On a regular basis, examiners, 
including union designees, system developers, and management officials 
have met and discussed the details of this important project at the 
ground phase.
    While the changing of attitudes and approaches are certainly 
necessary, I have also recognized the need to provide a formal 
structure for forging a more effective labor management relationship. 
First, I am re-instating our PTO Partnership Council. My vision for the 
council is for labor and management to work collaboratively together to 
meet the demands of the PTO of the future. I have also added the Chief 
Information Officer to the Partnership Council as many of the issues 
facing the PTO address changes to the work environment brought about by 
automation and I have proposed that the following objectives of this 
Council be considered:

  <bullet> Jointly defining an effective labor-management relationship 
        and the key principles for achieving and maintaining such a 
        relationship

  <bullet> Benchmarking the best practices of other organizations

  <bullet> Conducting joint training

  <bullet> Developing a communications strategy

  <bullet> Identifying and sponsoring joint projects

  <bullet> Reviewing progress on a regular basis

    Further, I will continue to initiate periodic meetings with the 
Assistant Commissioners for Patents and Trademarks, the Chief Financial 
Officer, the Chief Information Officer, the Director of Human 
Resources, and the three employee union presidents to address difficult 
areas and evaluate the success of our efforts towards creating a 
professional, cooperative and business-like labor-management 
environment. These efforts will build on, among other things, past 
experiences and successes in partnership which include more than forty 
midterm agreements and one term agreement reached through interest 
based and/or partnership techniques.
    PTO decided to replace the patent text search software in 1994 
because it did not have the functionality available in modem text 
search tools, was difficult and costly to operate and maintain, was 
limited to 200 concurrent users, and was not year 2000 compliant. Since 
January 1995, we have annually presented our complete plans for 
automation PTO-wide in our Strategic Information Technology Plan. The 
plan to replace the patent examiner text search software was first 
presented in the fiscal year 1995-fiscal year 2000 Strategic 
Information Technology Plan. Progress toward meeting that objective has 
been included in each annual update to the PTO Strategic Information 
Technology Plan. The plan has been electronically disseminated to all 
internal and external parties both on our internal web and on our 
external web site since 1997.
    Historically, we have made several efforts to alert our examiners 
to the changes that they will be experiencing in the years to come. For 
example, in June 1998, all examiners were briefed on the upcoming 
changes to their work environment in a series of briefings in Crystal 
City. All of the projected changes, including the replacement of the 
core text search engine and desktop tools, were presented and discussed 
with time allowed for questions and answers, Further, all examiners 
were given non-production time to allow them to attend, and they were 
strongly encouraged to attend.
    On the patent automation front, we have indeed been developing and 
maintaining automated search tools for the past fifteen years and we 
will continue to do so to keep pace with the exponential growth of 
available information. In the early 1980's, the PTO launched one of its 
first systems, a tool to `text' search a limited number of patents. 
Access was provided through shared custom-built workstations and an 
examiner had access to all US Patents subsequent to 1970. In the late 
80's and early 90's, a limited number of examiners had access to both 
the text and images (drawings), again of all US Patents subsequent to 
1970.
    From examiner focus sessions held in March and April 1994, the 
number two ranked priority of patent examiners was to expand the 
content of and access to PTO's automated search data bases. The patent 
text search engine was a commercial product modified to meet the PTO's 
requirements and was expensive to maintain and difficult to learn and 
use. In addition, the search engine was limited to 200 concurrent 
users. The PTO provided seamless access to external databases in 
February 1997, greatly expanded the content of PTO databases in My 
1998, and replaced the patent text search engine with a modem COTS 
product in March 1999. Working with representatives of the union, we 
will continue to enhance or replace those tools to assist our examiners 
in providing the highest quality patents.
    Today, from a desktop computer, in addition to the full text of 2.5 
million U.S. patents, examiners can search commercial databases, 
industry specific technical disclosure bulletins, English translations 
of 5.0 million Japanese patent abstracts and 3.0 million European 
patent abstracts, and 9.3 million foreign patent abstracts from the 
Derwent collection of patent documents. Additionally, examiners have 
desktop access to over 300,000 articles from scientific and technical 
journals published by Elsevier in the areas of chemistry, medicine, and 
biotechnology.
    Patent examiners can also search millions of pages of all U.S. and 
foreign patent images. These image and text databases continue to grow 
as approximately 3,000 newly granted U.S. patents are added to the 
system on a weekly basis, and other documents are added as we receive 
them. With the deployment of the initial desktop capability, patent 
image search system use increased 48 percent in the first 6 months. 
Most importantly, the availability from the examiner's desktop 
workstation of this vast amount of patent documentation and other 
technical information has improved the quality of the examiner's 
search. The ``Patent 1998 Customer Satisfaction Survey Report'' 
indicated that PTO's customers showed an 11 percent increase in 
satisfaction with how examiners ``conduct a thorough search during the 
patent examination process,'' up from their opinion in 1996.
    Managing this tremendous growth has resulted in numerous 
challenges. Many of our current or past search tools have served the 
PTO well during their tenure. However, as the limits of technology 
continue to advance, new tools become available which provide an even 
greater access to information. For example, when the shared 
workstations were first used the number of examiners using the system 
were approximately 2,000. Today, the number of examiners using the 
desktop systems has grown to over 3,800, and their expectations 
concerning system capabilities have increased as technology has spread 
throughout our culture.
    With the transition to a modem text search product, additional 
features requested by the examiners--not available from the previous 
search engine--are being deployed to assist the examiners search a 
broader universe of prior art. Some of the features requested for the 
new product are: query by example; relevance ranking of returned 
answers; British-American equivalent term substitutions; multiple on-
line thesauri; automatically search abbreviations and the fall word(s) 
abbreviated; support for many more concurrent users; plus better system 
support for adding and indexing, and retrieving multiple information 
sources from a single search statement.
    As the ranks of the Patent Business have grown, system 
infrastructures must be able to provide the necessary level of support 
and service required for the burgeoning population of patent examiners. 
Further, since many of our early development efforts were customized 
for the PTO and are not year 2000 compliant, maintenance of these 
systems has been costly and would be even more costly to upgrade. 
Inevitably, comparisons will be made between today's tools which 
examiners have grown accustomed to, and future tools which examiners 
may be reluctant to accept. However, to address these challenges, the 
PTO has and must continue to deploy new systems.
    To mitigate the impacts of these changes, we have enlisted the 
support and considered the recommendations of numerous users in 
developing our new search tools. Through mechanisms such as examiner 
focus sessions, roundtable discussions, and an automated suggestion 
box, system developers have been provided valuable information on user 
preferences and requirements which have been integrated whenever 
possible. In addition, patent examiners participated in the ``hands-
on'' evaluation of four text search software products and recommended 
to PTO's Chief Information Officer which software product best fit 
their needs. Through all of this, we are committed not only to 
fulfilling our legal obligations with respect to the unions, but also 
to strive to work together in the spirit of partnership.
  

                                <greek-d>

</pre></body></html>
